<html>
<title> - THE FUTURE VISITOR'S CENTER AT GETTYSBURG NATIONAL MILITARY PARK AND THE ASSOCIATED FUNDRAISING EFFORTS</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
 THE FUTURE VISITOR'S CENTER AT GETTYSBURG NATIONAL MILITARY PARK AND 
                  THE ASSOCIATED FUNDRAISING EFFORTS
=======================================================================

                           OVERSIGHT HEARING

                               before the

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             March 21, 2002

                               __________

                           Serial No. 107-99

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov







                           U.S. GOVERNMENT PRINTING OFFICE
78-322                          WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                
      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

               GEORGE P. RADANOVICH, California, Chairman
      DONNA M. CHRISTENSEN, Virgin Islands Ranking Democrat Member

Elton Gallegly, California            Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Eni F.H. Faleomavaega, American 
 Joel Hefley, Colorado                   Samoa
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North          Tom Udall, New Mexico
    Carolina,                        Mark Udall, Colorado
  Vice Chairman                      Rush D. Holt, New Jersey
Mac Thornberry, Texas                James P. McGovern, Massachusetts
Chris Cannon, Utah                   Anibal Acevedo-Vila, Puerto Rico
Bob Schaffer, Colorado               Hilda L. Solis, California
Jim Gibbons, Nevada                  Betty McCollum, Minnesota
Mark E. Souder, Indiana
Michael K. Simpson, Idaho
Thomas G. Tancredo, Colorado





                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 21, 2002...................................     1

Statement of Members:
    Christensen, Hon. Donna M., a Delegate in Congress from the 
      Virgin Islands.............................................     3
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California....................................     1
        Prepared statement of....................................     2
    Platts, Hon. Todd Russell, a Representative in Congress from 
      the State of Pennsylvania, Statement submitted for the 
      record.....................................................    57
    Santorum, Hon. Rick, a U.S. Senator from the State of 
      Pennsylvania...............................................     4
        Prepared statement of....................................     6

Statement of Witnesses:
    Hoffman, Paul, Deputy Assistant Secretary for Fish, Wildlife, 
      and Parks, U.S. Department of the Interior, Washington, 
      D.C........................................................    10
        Prepared statement of....................................    13
    Wilburn, Robert C., President, Gettysburg National 
      Battlefield Museum Foundation, York, Pennsylvania..........    22
        Prepared statement of....................................    24

Additional materials supplied:
    Benner, Craig, Gettysburg, Pennsylvania, Letters submitted 
      for the record.............................................    53
    Haffner, Craig, President and CEO, Greystone Films, Letter 
      submitted for the record...................................    55
    Levy, Robert W., FAIA, President, The HABS/HAER Foundation, 
      Letter and resolution submitted for the record.............    56
    Rebmann, Chris, President, Association of Licensed 
      Battlefield Guides, Letter submitted for the record........    58


OVERSIGHT HEARING ON THE FUTURE VISITOR'S CENTER AT GETTYSBURG NATIONAL 
          MILITARY PARK AND THE ASSOCIATED FUNDRAISING EFFORTS

                              ----------                              


                        Thursday, March 21, 2002

                     U.S. House of Representatives

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 2:05 p.m., in 
room 1334, Longworth House Office Building, Hon. George 
Radanovich [Chairman of the Subcommittee] presiding.
    Mr. Radanovich. Well, good afternoon and welcome to the 
Oversight Hearing on the Future Visitor's Center at Gettysburg 
National Military Park and the Associated Fundraising Efforts. 
I have an opening statement. With that, after that, we will 
introduce our panel and begin the hearing.
    Senator Santorum, it is a pleasure to have you here. 
Welcome.
    Senator Santorum. Thank you, Mr. Chairman.

STATEMENT OF THE HONORABLE GEORGE RADANOVICH, A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. And the Subcommittee on National Parks does 
come to order. Good afternoon. We are here today to examine the 
progress of the future visitor center at Gettysburg National 
Military Park and the accompanying fund-raising efforts.
    I would like to begin by expressing condolences to the 
family of Congressman Platts who represents Gettysburg. I know 
that he wanted to be here but is unable to attend due to the 
death of an extended family member and his participation at 
that service. Our thoughts and prayers are with his family at 
this time.
    Without question, Gettysburg is the crown jewel of 
America's Military and battlefield parks. That sacred ground is 
greatly revered because of the special sacrifices that took 
place there and because of the key role of the Battle of 
Gettysburg in our Nation's history. We share a common reverence 
for it.
    As a result, we are not here today to discuss whether or 
not to care for the ground at Gettysburg, but how best to 
accomplish that goal and keep faith with the American people, 
who expect National Park Service and Congress to ensure that it 
is done properly.
    We must also keep in mind that many have referred to this 
project as a pattern of how the Park Service can meet future 
Park needs when resources are limited. In other words, there is 
a special responsibility that this Subcommittee maintain close 
oversight over this project. We need to be able to answer to 
the American people that what has been done in that Park is 
consistent with their expectations and desires and that they 
are comfortable with the process and its outcome.
    Given the potential magnitude of this project's impact upon 
the entire Park system, it would be a dereliction of duty if it 
were not subject to close scrutiny.
    Several significant concerns have been brought to my 
attention about this project. First, important legal questions 
remain regarding the adequacy of the NEPA process followed. 
This concern has deepened as the project moves farther away 
from what the public thought that they were commenting on 
during the public process.
    Second, there are substantial concerns that the general 
agreement entered into by the Park Service and the Gettysburg 
National Battlefield Museum Foundation may violate the 1998 
Park Concession Act, Federal procurement law, and is also 
inconsistent with public expectations and commitments made to 
the Congress.
    The general agreement also does not impose a time schedule 
and leaves it unclear as to when or even if the complex will be 
turned over to the Park, which we will later clear up. These 
questions need to be answered.
    I am pleased to note that the written testimony for the 
Park Service notes their willingness to review the 1999 general 
management plan for Gettysburg, and I am hopeful that this will 
allow us to fix some problems in that plan as well as the 
problems in the general agreement that might need attention.
    I look forward to hearing from our witnesses today. With 
is, of course, Senator Rick Santorum of Pennsylvania. Mr. Paul 
Hoffman, Deputy Assistant Secretary for Fish, Wildlife and 
Parks, and Robert Wilburn, President and CEO of the Gettysburg 
National Battlefield Museum Foundation.
    It is my hope that the testimony today will shed further 
light upon those key questions. With that, I give time to the 
Gentlelady from the Virgin Islands, Mrs. Christensen.
    [The prepared statement of Mr. Radanovich follows:]

Statement of The Honorable George P. Radanovich, Chairman, Subcommittee 
            on National Parks, Recreation, and Public Lands

    The Subcommittee on National Parks, Recreation, and Public Lands 
will come to order. Good afternoon everyone. We are here today to 
examine the progress of the future visitor's center at Gettysburg 
National Military Park and the accompanying fundraising efforts.
    I would like to begin by expressing condolences to the family of 
Congressman Platts, who represents Gettysburg. I know he wanted to be 
here but is unable to attend due to the death of an extended family 
member and his participation at the service. Our thoughts and prayers 
are with their family.
    Without question, Gettysburg is the crown jewel of America's 
military and battlefield parks. That sacred ground is greatly revered 
because of the special sacrifices that took place there and because of 
the key role of the Battle of Gettysburg in our nation's history. We 
share a common reverence for it. As a result, we are not here today to 
discuss whether or not to care for the ground at Gettysburg, but how 
best to accomplish that goal and keep faith with the American people 
who expect the National Park Service and Congress to ensure that it is 
done properly.
    We must also keep in mind that many have referred to this project 
as a pattern of how the Park Service can meet future park needs when 
resources are limited. In other words, there is a special 
responsibility that this Subcommittee maintain close oversight over 
this project. We need to be able to answer to the American people that 
what has been done with their park is consistent with their 
expectations and desires and that they are comfortable with the process 
and the outcome. Given the potential magnitude of this project's impact 
upon the entire park system, it would be a dereliction of duty if it 
were not subjected to close scrutiny.
    Several significant concerns have been brought to my attention 
about this project that merit further exploration. First, important 
legal questions remain regarding the adequacy of the NEPA process 
followed. This concern has deepened as the project moves farther away 
from what the public thought they were commenting on during the public 
process. Second, there are substantial concerns that the General 
Agreement entered into by the Park Service and the Gettysburg National 
Battlefield Museum Foundation may violate the 1998 Park Concessions 
Act, Federal procurement law and is also inconsistent with public 
expectations and commitments made to Congress. The General Agreement 
also does not impose a time schedule and leaves it unclear, as to when, 
or even if, the complex will be turned over to the Park. These 
questions need to be answered.
    I am pleased to note that written testimony for the Park Service 
notes their willingness to review the 1999 General Management Plan for 
Gettysburg. I am hopeful that this will allow us to fix problems in 
that plan as well as the problems in the General Agreement that need 
attention.
    I look forward to hearing from our witnesses today, Senator Rick 
Santorum of Pennsylvania, Mr. Paul Hoffman, Deputy Assistant Secretary 
for Fish, Wildlife, and Parks, and Mr. Robert Wilburn, President and 
CEO of the Gettysburg National Battlefield Museum Foundation. It is my 
hope that the testimony today will shed further light upon these key 
questions.
                                 ______
                                 

STATEMENT OF THE HONORABLE DONNA M. CHRISTENSEN, A DELEGATE IN 
                CONGRESS FROM THE VIRGIN ISLANDS

    Mrs. Christensen. Thank you, Mr. Chairman. Mr. Chairman, I 
share some of your concerns. The development of the visitor's 
facility at Gettysburg National Military Park is an important 
matter that deserves the attention of the Subcommittee. 
However, this is not a new matter for this Subcommittee. 
Today's hearing builds upon a hearing held by us on this same 
topic in February 1999.
    The reason for all of this attention is that since the mid-
1990's there has been an ongoing public controversy with the 
Park Service plans to implement a partnership with the 
developer and the foundation they established to construct a 
major visitor's facility complex on private land within the 
Gettysburg National Military Park.
    There have been many questions and concerns raised 
regarding the size, scope and location of such a new facility. 
The questions and concerns with this project were such that the 
House voted in 1999 to cutoff funds to implement the NPS plans. 
While that funding limitation was ultimately not successful, it 
did indicate the depth of concern that existed with what was 
being proposed.
    Through the parks planning process, a number of changes 
were made to the project to reduce both its size and cost. 
Therefore, it came as a surprise to learn recently that the 
project had undergone a significant expansion. Since 1999, the 
project's cost has more than doubled and its size has increased 
by nearly 20 percent.
    No one questions the inadequacy of the current visitor's 
and artifacts facilities at Gettysburg National Military Park. 
However, we owe it to the public to assure that the high 
standards of the National Park System are maintained in all 
actions affecting the Park, especially a Park of such 
significance to our Nation.
    I appreciate the presence of our colleague, Senator 
Santorum, welcome him today, and I welcome all of our witnesses 
and look forward to your testimony.
    Mr. Radanovich. Thank you, Mrs. Christensen. With that, I 
would like to introduce our first panel. Mark, did you have any 
opening statements or anything?
    Mr. Souder. I will make some comments.
    Mr. Radanovich. That will be fine. Seeing there is nobody 
else up here, I guess we are ready. Senator, thank you for 
being here and please begin your testimony. Welcome.

STATEMENT OF THE HONORABLE RICK SANTORUM, A SENATOR IN CONGRESS 
                 FROM THE STATE OF PENNSYLVANIA

    Senator Santorum. Thank you, Mr. Chairman. Let me apologize 
for my voice not being so great, but I will do my best to get 
through this.
    Let me just say that my history here with this battlefield 
has been a long one. When I got into the U.S. Senate, I worked 
very diligently in trying to improve the Park because what I 
saw was a Park in actually pretty deplorable condition. I know 
Mark has been involved in this effort, also.
    I want to thank this Committee for this effort, and I know 
in talking to the Chairman that your effort here is one to make 
sure that we are doing this right and that this is going to be 
a successful project, and I can tell you from the bottom of my 
heart there is nothing that I would rather see be successful 
more than this project. So I think we come at it from the same 
perspective.
    Let me give you a little bit of a rundown of my history 
with it, and why I believe what is before you now is not only 
proper, but a bare minimum of what we should be doing to create 
a quality visitor's experience and to honor those who 
sacrificed the ultimate at the Battle of Gettysburg.
    If you have been, and I know you have, to the existing 
visitor's center, it is really a tragedy. It is a tragedy on 
many levels. It is a tragedy, No. 1, because you have artifacts 
sitting in unregulated conditions that are going to seed. Most 
of them are not displayed. Most of them are in conditions that 
they should not be in, but we have no adequate place to house 
them.
    The visitor's center is at best a hodgepodge of buildings 
added on one after another over time that does not provide any 
kind of real interpretative experience for the visitors. It 
sits in the middle of the battlefield. It sits at the edge of 
Pickett's Charge. A parking lot is where people gave their 
lives for this country.
    It is simply not a proper venue or location for a visitor's 
center. The battlefield should be, and I know the members of 
the Committee agree with this, the battlefield should be as the 
battlefield was in 1863, and it is not. All of those things 
were confronted when I came to begin my actions at Gettysburg 
back in 1995.
    We have done some things very positively. We added a 
million dollars to the operations budget there which allowed 
for substantial improvement of cannon carriages that were 
simply collapsing, of buildings that were field hospitals that 
were collapsing. We have been able to make some improvements in 
that regard.
    But the big nut, and the big thing that we had to change 
was the visitor's center. We had to do something to provide a 
better quality visitor's experience and we had to do something 
to protect those artifacts. There are a lot of plans that were 
being thrown around and a lot of ideas. But the Park Service 
went through their process, the general management plan 
process.
    I can tell you there was no shortage of public hearings, 
because my staff went to dozens upon dozens of them and 
listened to those who were very much opposed to it. And I 
understand why they were opposed to it. There were a lot of 
businesses in proximity to the current visitor's center. And 
when you move the visitor's center off the battlefield, which I 
think everybody hopefully on this Committee supports, you are 
going to move it away from those businesses.
    And I understand why all of those businesses opposed it. 
They were very vocal with me in their opposition to the 
movement of the visitor's center. But I think it is in the 
interest of history that it be moved. The question is where do 
you move it to?
    Well, there was lots of ideas out there, and my sense is 
you move it to some place in proximity to the existing 
battlefield that does not disturb the historic integrity of the 
battlefield. I think the location that has been proposed in the 
management plan is exactly that location. It is behind the 
Union line. It is down below the elevated heights of the 
battlefield. It is in a tree-covered area. You can't see it 
from any point in the battlefield, yet it is in proximity to 
the battlefield. It is walking distance. It makes it a really 
well connected visitor's center, at the same time not being 
intrusive on the battlefield.
    With respect to the space, the cost, I would just say this, 
that Gettysburg is, as I think you mentioned, Mr. Chairman, the 
most significant Military Park that we have in this country, 
and it deserves a world class visitor's center. You do not 
build a world class visitor's center on a shoestring. I would 
make the argument, and I have to my colleagues who are going to 
testify before you, that we should be doing it bigger and 
better. But this in my mind is at a minimum what we should be 
doing.
    The increase in cost, part of it is inflation, as you will 
hear. Part of it is one of the things they decided to do, which 
the townspeople as well as many others have been involved and 
encouraged them to do, which is to build trails and other 
things to connect the visitor's center more to the Park and to 
downtown.
    We are doing a lot of things. I see my time is up. But we 
are trying to do a lot of things to make this, No. 1, a 
showcase of how a private-public partnership can work. I 
understand there is concerns about raising the $90-plus million 
that are suggested here.
    I would argue that if you can't raise that kind of money 
for Gettysburg, you are not going to have a private-public 
project succeed in any other Park in this country. I think that 
now that the project is really underway, the fund-raising 
effort has really just started.
    I actually welcome this hearing as an opportunity to sort 
of shed light on the wonderful plans that you are going to be 
hearing from today of how we are going to make this a place 
that is really going to teach, not just battlefield and 
tactics, but really the whole picture of what Gettysburg means, 
not just to the Civil War, but to who we are as a culture.
    And I think that is an important interpretative aspect that 
has been missing that can be added with the dynamic visitor's 
center that they put together here. So I understand your 
concerns. And look, I want to make sure it is done right. I 
want to make sure it is done according to law. And to the 
extent that there are problems, I will certainly be happy to 
work with you. But I certainly would very strongly suggest that 
this is a project that is important not just for Gettysburg, it 
is important for the entire Park Service, so we can build--get 
these kind of private dollars into the Park Service at a time 
that we don't have the resources to maintain what we have.
    So with that, Mr. Chairman, I appreciate the opportunity to 
be here. I have a written statement that I would like to be put 
in the record, and be happy to take whatever questions you 
have, if you have any, of me.
    [The prepared statement of Senator Santorum follows:]

Statement of The Honorable Rick Santorum, a U.S. Senator from the State 
                            of Pennsylvania

    Chairman Radanovich and members of the Subcommittee, I appreciate 
the opportunity to testify today regarding the approved General 
Management Plan that outlines the parameters for design and 
construction of a new visitors center and museum at the Gettysburg 
National Military Park (GNMP). Over the course of several years, I have 
been involved with, and strongly supportive of, the effort to preserve 
the historic battlefield landscape and surrounding park resources, in 
order to continue sharing the story of the Battle of Gettysburg. 
Undoubtedly, that battle is one of the most significant events in our 
nation's history.
    Not unlike the many battlefields that reflect our nation's history, 
Gettysburg NMP faced the daunting task of how to preserve the many 
associated aspects of the park--artifacts, buildings, the battlefield, 
and the Soldiers' National Cemetery. To that end, the National Park 
Service initiated a process in 1995 that led to the development of a 
new general management plan. After an exhaustive process whereby dozens 
of public meetings were held; comments solicited on various 
preservation options; and an environmental impact study performed--a 
conclusion was reached as to how this comprehensive preservation effort 
would proceed.
    The end result would come in the form of a collaborative and 
cooperative partnership between the Gettysburg National Military Park 
and a non-profit organization--the Gettysburg National Battlefield 
Museum Foundation. Through their combined efforts, a new world-class 
visitors center will be built, in addition to a new museum that will 
house a permanent collection of Civil War artifacts and documents, and 
the battlefield will be restored to its historic condition preserving 
the battle lines of July 2 and 3, 1863.
    It's my understanding that the committee wants to explore the cost 
increase of the project, and look at the progress-to-date on 
implementation of the General Management Plan. I firmly believe the 
fundraising goals, while significant, will be met in a timely manner, 
and that given a chance to succeed--it will. I'm sure the committee 
will be satisfied with the answers provided today, and will be 
presented with the progress that has already been achieved.
    The Gettysburg National Military Park is truly a national treasure, 
and sacred ground. The battlefield is a sobering and tangible reminder 
of the sacrifice and courage of thousands of men whose convictions and 
actions determined the fate of this country. On the site where more 
than 51,000 men were killed, wounded or captured our obligation is 
clear: we must thoughtfully, thoroughly, and accurately present the 
Battle of Gettysburg and its significance in the context of the Civil 
War. I firmly believe the approved General Management Plan takes 
appropriate and meaningful steps to ensure that park visitors will be 
guaranteed that experience.
    Mr. Chairman, I look forward to our continued dialogue on this 
worthy and important undertaking, and appreciate the opportunity to 
highlight the unique partnership, and unwavering commitment, that will 
ensure this project's success.
                                 ______
                                 
    Mr. Radanovich. Thank you, Senator, and I also look forward 
to working with you to make sure that Gettysburg turns out all 
that it can be. As you know, we described it earlier as the 
crown jewel of the battlefield parks in this Nation, and I am 
happy to work with you to get through any hurdles that might be 
in the way to make it just that.
    So that is the conceptual drawing of the visitor's center?
    Senator Santorum. Yes.
    Mr. Radanovich. That is in the area located off the 
battlefield?
    Senator Santorum. Right.
    Mr. Radanovich. Does everybody have the current 
understanding that the current visitor's center and parking lot 
is part of the battlefield, that there is a consensus there 
that it needs to be removed?
    Senator Santorum. I am not too sure that some of the people 
that you have heard from in opposition to this plan do not have 
that consensus. There are many of the downtown business groups 
who do not want to move the battlefield--excuse me, the 
visitor's center, because of the parking lot. And when you Park 
there, your car is there. You are right across the street from 
the Wax Museum, you are across the street from the other 
businesses. And there is a concern by those businesspeople that 
if you restore the battlefield that parking lot goes, and you 
will be removing people from that area for commerce.
    Our argument has been all along is, No. 1, from an historic 
purpose, you have to do that. And from a commerce point of 
view, if you build a better visitor's center, if you make 
Gettysburg a better interpretative experience, you are going to 
get a lot more people coming there and staying there longer to 
enjoy all of the richness that can be brought through a better 
visitor experience, which will be beneficial to the downtown 
businesses over the long haul.
    That is the point we have tried to make. We haven't been 
successful with those who have a direct financial interest. By 
and large, I think the rest of the community feels the way I 
do. But there is a significant downtown business segment that 
does not agree with this.
    Mr. Radanovich. Thank you very much. Any questions, Mrs. 
Christensen?
    Mrs. Christensen. Let's see. Really I am happy to have you 
with us, and I hope we can work on reaching some resolution to 
getting this done. I don't think anyone disagrees, as you said, 
with the poor condition and need for replacement and the need 
for relocation.
    There was a request for an extension of the comment period 
which was denied. Do you feel that there was adequate comment 
by the public into the proposal?
    Senator Santorum. I most sincerely do. I can't tell you the 
number of public meetings that not only I attended but other 
members of my staff attended in Gettysburg. They may know the 
number. Dozens. Two dozen. 50. I mean, that is a lot of 
meetings to hear. And, you know, I met with them outside of 
those public comment meetings. I had meetings with the downtown 
businesspeople.
    Mrs. Christensen. When you went shopping.
    Senator Santorum. I heard from them. And they kept saying, 
well, you are not listening to us. I said, no, no, we are 
listening to you. That doesn't mean that we have to agree with 
everything you said. And I can tell you, well, they can tell 
you. I am not going to give their testimony of the changes that 
were made. We made changes with respect to seating at the 
restaurant, of food that was going to be offered there, a 
variety of different things so we would do the least amount of, 
quote, damage to the commercial entities within the community.
    Mrs. Christensen. That was my other concern. Do you think 
that--I imagine a lot of the opposition was from that? Do you 
think you have addressed that?
    Senator Santorum. That was principally where the opposition 
did come from. We did try. They made change after change to try 
to accommodate the concerns. But the bottom line was, those 
folks didn't want to move the visitor's center. And all of 
this, in my mind, was just an attempt to try to stymie any 
effort to change the existing plan.
    Mrs. Christensen. Well, I thank you for being here with us 
and answering the questions and for your testimony. I don't 
have any further questions, Mr. Chair.
    Mr. Radanovich. Thank you, Mrs. Christensen. Mr. Souder.
    Mr. Souder. I would like to make a few comments and then I 
have a question. First, I have been generally supportive of 
this project from the beginning. It is not just in the 
battlefield, it is right at the Fishhook, which was right near 
the point of the farthest southern advance where many of the 
Hoosiers died trying to fight.
    Also, during the summer, when I was there the last time, I 
think there were seven part-time rangers and others trying to 
do parking. And for the business people in the community who 
are worried whether people will go that extra distance from the 
visitor's center, a shuttle will make it more likely. I 
couldn't even figure out where I was. I couldn't figure out 
where the Gettysburg Address was. People were parking up on the 
monuments, up on the battlefield. It is chaos in the summer.
    Unless we can get this off the battlefield, nobody is 
looking of where to go into town, they are looking about how to 
get out of the mess right now at the peak season. This has to 
be addressed. It is disappointing that it has taken this long, 
because this is our premier Military Park.
    As a retailer myself, in a much smaller town even than 
Gettysburg, and certainly without a national landmark there, 
one of the things is how to extend a major visitor's site to an 
overnight visit. It is one of the things you face in Yosemite 
and elsewhere. This gives the potential particularly to develop 
the Wills House and the Gettysburg Address sites, which are 
kind of lost in the shuffle right now because of the nature of 
this. This becomes an even greater attraction, because the 
Gettysburg Address is arguably the single most important speech 
ever made in the United States, and its document, and we have 
not had the ability to fully develop that concept.
    This Committee over the last few years has added some 
additional sites. We are looking at this as Gettysburg College 
gets involved as they redo the downtown with the Majestic 
Theatre. You can see how the town is actually going to be 
complimentary. And in putting it into perspective, it is clear. 
And I think there are some questions as to what is the 
potential Federal liability if the funds aren't raised in the 
process. That is going to be one of the guts of the types of 
questions.
    But this site, which looks like an Andrew Wyeth painting, 
is the kind of classic parkitecture that we should see in our 
major most significant parks, and the idea that this can be 
mostly raised from the private sector and the State is 
extremely important. Yosemite was all raised from the private 
sector.
    Senator Santorum. All raised.
    Mr. Souder. But there are things that I don't think we 
should preclude, like the Cyclorama painting was already 
cracking and was going to require Federal funding beforehand 
and would require it otherwise. It is not clear that in certain 
artifact preservation or interpretation that should be 
absolutely ruled out that there will never be any Federal 
dollars. I know that is the intent. But the practical matter is 
the dollars, as the premier Military Park, would have come in 
any way to Gettysburg. You can't say, well, we would have but 
it in the old visitor's center but not in the new visitor's 
center, because we have already been doing restoration. We were 
already putting dollars in from this Federal Government, much 
as Independence Hall and Independence Park is privately raised 
for the Constitution Center and for the Education Center.
    We still have had to put some into those, because it is 
where the original documents of the United States Constitution 
were developed, and the Library of Congress and everything. So 
I don't think that we should say there is absolutely no Federal 
dollars. But for the construction of the building, it is very 
similar to what you are doing at Yosemite Falls, where the 
Yosemite Fund is actually raising the money to redo the area, 
and it may be that there is some Federal help if they don't do 
it.
    And the question is, how do we phase in a project to limit 
the Federal liability in dollars much like Yosemite Falls. We 
could wind up, if the Yosemite Fund fell short, having to cover 
some of the gap too. But we don't necessarily say you have to 
say all of the dollars before you start, but there needs to be 
some kind of phase-in project that limits the ultimate 
liability, and I think that is going to be one of the concerns 
of the Committee.
    But I think if you don't dream of a world class center for 
our primary battlefield that defines much of the conflict and 
how to avoid that conflict in the future, and what lessons we 
have learned through the Address afterwards, through the battle 
itself, it would be terrible to go cheap on this Park and 
regret it. We have seen that from Mission 66 architecture in 
the United States and now we are tearing it down because it 
doesn't fit. And if we can do this with almost all private 
sector funds, and as long as we are assured that it is almost 
all private sector funds, I think this is an exciting 
development.
    And I sat through the hearings and many of the meetings 
where the community was complaining about the interaction with 
the community, and to do the trails and stuff is partly to meet 
the objections of some of the critics. But there is--we can't 
always meet every objection with more money in the first round, 
and one of the things that I wanted to just double check with 
Senator Santorum, because, like me, we have also wrestled with 
how to balance the budget and we have many other type of needs. 
And are you supportive of a concept that would have phases 
here, that if the private sector's funding doesn't meet certain 
goals that it can be delayed, whether that be the trails, the 
interconnecting, the shuttle service, whether parts of this 
building could be built with additions later on so we know that 
the amount of liability at any given time is somewhat 
contained?
    Senator Santorum. I would be happy to certainly work with 
you on that. And I got to say, I am very confident we are going 
to be able to raise this money. I am supremely confident that 
we are going to be able to raise this money. But if the 
Committee feels comfortable with some sort of arrangement 
whereby the Federal Government is protecting themselves from 
any kind of liability, I would be certainly willing to look at 
what you have to offer and, you know, run it by our folks and 
see what we can come up with.
    Mr. Souder. I am certain that too, that--I mean, Gettysburg 
probably has more mass numbers of support than almost any other 
Park, because of all of the Military buffs, the reenactment 
buffs, in the general Civil War history following. So you are 
not just talking about major donors, you have a much broader 
base.
    So I would hope we would be able to reach those goals, but 
I do think it is responsible of us to ask those kind of 
questions.
    Thank you very much for your time.
    Senator Santorum. Thank you, Mark.
    Mr. Radanovich. Any other questions? All right.
    Senator, thank you very much for being here. I ask 
unanimous consent to allow the Senator to join the Committee on 
the dais for the rest of the hearing if the Senator so wishes. 
So ordered.
    And with that, we will go ahead--and also asking unanimous 
consent to accept the written testimony of the Senator and 
anybody else who wishes to submit written testimony. There 
being no objection, none heard, so ordered.
    The second panel is Mr. Paul Hoffman, who is the Deputy 
Assistant Secretary of Fish, Wildlife and Parks, and Mr. Robert 
Wilburn, who is the President of Gettysburg National 
Battlefield Museum Foundation from York, Pennsylvania. 
Gentlemen, welcome. Thank you very much. We are not going to 
run the clock, but if you would stay close to 5 minutes for 
your presentation, it will give us plenty of time for questions 
and answers.
    Mr. Hoffman, welcome and you may begin.

STATEMENT OF PAUL HOFFMAN, DEPUTY ASSISTANT SECRETARY FOR FISH, 
WILDLIFE, AND PARKS, DEPARTMENT OF THE INTERIOR; ACCOMPANIED BY 
JOHN LESHER, SUPERINTENDENT, GETTYSBURG NATIONAL MILITARY PARK; 
 AND DAVID HOLLENBACK, ASSOCIATE REGIONAL DIRECTOR, NORTHEAST 
                 REGION, NATIONAL PARK SERVICE

    Mr. Hoffman. Thank you, Mr. Chairman. Thank you for your 
forbearance, and thank you for the opportunity to testify 
before your Committee on behalf of the Department of the 
Interior regarding the general management plan for the 
Gettysburg National Military Park, the partnership with the 
Gettysburg National Battlefield Museum Foundation, the fund-
raising efforts for the new museum and visitor's center.
    And I have submitted already some written testimony for the 
record. I would like to give you just a little bit of personal 
background. This is my first time testifying at a Congressional 
hearing, and it is my prayer that it is memorable only for that 
reason.
    Mr. Radanovich. Just wait.
    Mr. Hoffman. But I am ready. I have faced grizzly bears in 
the dark of night. So I am ready to answer all of your 
questions.
    I do have in my background extensive experience in working 
with the National Park Service, back country use as a 
wilderness guide. I used to be the State Director for then 
Congressman Dick Cheney, when he was Congressman from Wyoming.
    I just most recently served a 12-year stint as the 
Executive Director of the Cody Country Chamber of Commerce, a 
gateway community to Yellowstone National Park, and we dealt 
extensively with Park Service issues. I dealt extensively with 
a little museum called the Buffalo Bill Historical Center, soon 
to be 300,000 square feet, right in the Town of Cody. And 
amazingly enough there were people right in the Town of Cody, 
right next to them, that didn't like them being there because 
they were a nonprofit and they thought that was unfair 
competition.
    I have had a lot of experience working with Secretary 
Norton's four Cs: Consultation, Cooperation, Communication, all 
in the service of Conservation, and we hope to apply that to 
this issue as well.
    I have fairly extensive experience in conflict resolution 
skills, a common sense approach to government, and I bring a 
customer service perspective to these issues.
    A little bit of background on the issue. In the mid to late 
1990's there were conceptual plans proposed for a full service 
visitor's center and museum at the Gettysburg National Military 
Park. That was approximately 145,000 square feet. There was a 
comment period that led to a scaled back proposal.
    It is my understanding that the essence of those comments 
were largely focused on what people perceived to be the unfair 
competitive aspects of the original proposal, the full service 
restaurant, the IMAX Theatre and those things that the 
businesspeople felt were unfair competition to what they were 
trying to provide to the visitors at Gettysburg.
    In the final general management plan, there were specific 
components to the new visitor's center that were articulated in 
the plan as well as reduced square footage down to 118,000 
square feet. Those components included a visitor's center, 
museum, classrooms and a library, the restoration and new 
display for the Cyclorama painting, bookstore and limited food 
service, as well as Foundation and National Park Service 
administrative space.
    It is my understanding that those components were pretty 
much agreed upon by those who commented on the plan. There is 
now a current estimate for the cost of the new visitor's center 
as well as a revised increase in square footage which is the 
source of some of the anxiety and why we are here today.
    It is unfortunate that the current cost estimate is 
approximately two and a half times the cost estimate that was 
contained in the general management plan. I think that really 
is one of the more regrettable aspects of this whole thing. I 
think the $39 million figure was an abysmal attempt to forecast 
the cost of such a visitor's center, and it has the consequence 
of making the $95 million cost look excessive.
    I would like to offer some explanations, some observations 
if you will, on why the $95 million figure is what it is 
relative to the $39 million. First of all, as all projects go, 
you originally have an idea and you try to attach cost to that, 
and then you go out and you develop conceptual plans, and with 
conceptual plans in place you can get a better focus on what 
the cost will be.
    And then when you get down to construction plans. That is 
the point at which you really can say what you expect this 
facility to cost you when it is finally built out and open to 
the public.
    This is a natural process. Perhaps it is not natural to go 
two and a half times, but it is natural to see those costs 
escalate during this process.
    Regarding the expansion of the square footage, it does not 
change the components to the visitor's center. And, 
accordingly, the Park Service feels that it did not alter the 
general management plan or substantially deviate from what the 
public had commented on during that process. And the expansion 
of those components came at the recommendation of the 
architects and the engineers, who felt that the larger size 
would facilitate the movement of people through that facility.
    Also part of the $95 million is the addition of a $10 
million endowment fund, $10 million for the cost of fund-
raising, and that has significantly increased the amount of the 
project.
    Some other issues that have been raised by the Committee 
that I would like to address is, one is, will the construction 
start before the funds are raised? And the answer to that 
question has always been no. Construction will not begin until 
all of the funds are raised.
    Now, when I say that, I think it is important to put a 
caveat on that. I think it is important that when we say all of 
the funds raised, we focus on the funds necessary for the 
construction of the visitor's center and all of those amenities 
and not necessarily say that all of the funds for the endowment 
or the cost of fund-raising or the interest payments or the 
restoration of Zeigler's Grove be part of that.
    I estimate that $65 million is necessary to build the 
infrastructure out and open it to the public. We will not begin 
construction until that amount is raised and in the can, so to 
speak.
    There are some concerns about the open-ended aspect of the 
general agreement and when the facilities will actually be 
transferred to the National Park Service, and I believe we are 
willing to go back to the Foundation and discuss amending that 
agreement and putting some sideboards on that, if you will, to 
suggest that at the end of 20 years after the facility is open 
to the public it will be transferred debt free to the National 
Park Service, and we would facilitate those discussions.
    As you noted in the written testimony, we have agreed to 
review the general management plan, and we think that that is 
appropriate. We always want to make sure that whatever we are 
doing, we are doing it consistent with the general management 
plan for the Park Service unit, and that may or may not 
necessarily lead to a supplemental EIS or a complete redoing of 
the general management plan. I think we want to reserve 
judgment on that, depending on whether or not that is 
warranted.
    In conclusion, Mr. Chairman, I fully appreciate that the 
Committee has concerns about the newly forecasted cost of this 
project and the fact that they are more than double the 
original cost estimates of these facilities as articulated in 
the GMP. Moreover, I appreciated the concerns the Committee may 
have concerning the Foundation's ability to reach the new fund-
raising goal in a timely manner. To answer those questions and 
other questions that the Committee may have, I would like to 
introduce to the Committee Superintendent John Lesher, from 
Gettysburg National Military Park, and David Hollenback, who is 
the Associate Regional Director from the Northeast Region of 
the National Park Service.
    And thank you, Mr. Chairman, for this opportunity to 
testify, and we would be most happy to answer any questions you 
may have or other members of the Committee.
    [The prepared statement of Mr. Hoffman follows:]

  Statement of Paul Hoffman, Deputy Assistant Secretary for Fish and 
          Wildlife and Parks, U.S. Department of the Interior

    I wish to thank the committee for the opportunity to appear today 
to discuss the implementation of the approved General Management Plan 
(GMP) for Gettysburg National Military Park which includes our 
partnership with the non-profit Gettysburg National Battlefield Museum 
Foundation to fund, design, build and operate a new museum and visitor 
center at Gettysburg National Military Park. I understand that the 
Committee has concerns about the newly forecasted cost of this project 
and the fact that they are more than double the original cost estimates 
of these facilities as articulated in the final GMP.
Gettysburg National Military Park
    The mission of Gettysburg National Military Park is to preserve and 
protect the resources associated with the Battle of Gettysburg and the 
Soldiers' National Cemetery, and to provide understanding of the events 
that occurred here, within the context of American history.
    The park was established on February 11, 1895, and includes the 
National Cemetery, and 6,000 acres of historic farmhouses, barns, 
fences, orchards, earthworks, roads, wood lots, and other key features 
of the battlefield.
    Gettysburg is the most visited Civil War site in the National Park 
System, and has attracted an average of 1.8 million visitors per year 
over the past eight years.
The General Management Plan and Public Involvement
    By law and policy, the NPS planning process provides opportunities 
for public involvement in the creation of a general management plan. 
For Gettysburg NMP, public involvement in the planning process began in 
March of 1995 and ended in April 1999. During this four-year period, 
the NPS provided the public with opportunities to comment at over 50 
public meetings and open houses and asked for comments in four 
newsletters. A draft and final plan was sent to a nationwide mailing 
list of 3,800 members of the public.
    During the four-year planning process, the NPS received over 3,700 
written comments from the public. Of these, more than 85% of the 
respondents favored the NPS proposal to rehabilitate the battlefield 
landscape to its historic condition and to form a public-private 
partnership to provide the NPS and its visitors with much-needed 
facilities (11.5% were opposed, and 2.7% were undecided). Many of those 
who favored the proposal noted that it offered a way to build new 
facilities without reliance upon appropriated funds.
    In November 1999 the Northeast Regional Director of the NPS signed 
the Record of Decision for the General Management Plan/Environmental 
Impact Statement. This marked the completion of the legal and 
regulatory requirements for the NPS planning process and final approval 
of the GMP for Gettysburg NMP. The approved final plan, containing a 
new vision for the entire battlefield, has received widespread support 
from historians, historic preservationists, Civil War enthusiasts and 
the general public.
    In light of concerns raised by this Committee and others, regarding 
the change in cost and size of the project, the National Park Service 
is willing to review the 1999 General Management Plan for Gettysburg 
NMP.
Implementation of the General Management Plan
    Since the last hearing held by this committee on this matter, the 
National Park Service has taken a number of steps to implement the 
General Management Plan for Gettysburg.
    The Borough of Gettysburg Interpretive Plan--Concurrent with the 
approval of the park's GMP, the NPS funded the development of an 
Interpretive Plan for the Borough of Gettysburg. This plan, developed 
in cooperation with the Borough of Gettysburg, the Chamber of Commerce, 
Gettysburg College and six other local organizations, was approved in 
November 2000. The purpose of the plan is to
        Help those who visit Gettysburg appreciate its history by 
        telling the story of its people, of their lives during the 
        Civil War, and of their role in the Battle's aftermath and 
        commemoration. In doing so, the plan will help preserve the 
        Borough's historic buildings and sites and bolster the economic 
        health of the town. (Borough of Gettysburg Interpretive Plan, 
        p. 2)
    In November, 2001, seven local organizations and institutions 
joined with the NPS and the Borough of Gettysburg in a Memorandum of 
Agreement for the implementation of this Interpretive Plan. To date, 
our progress includes:
    <bullet> Lthe Borough's purchase of the Wills House--where 
President Lincoln spent the night before delivering the Gettysburg 
Address--with grant assistance from the Commonwealth of Pennsylvania 
provided by former Governor Ridge;
    <bullet> Linclusion of the Wills House in the NPS boundary through 
Public Law 106-290;
    <bullet> Lpreparation of an historic structure report and 
preliminary design for the Wills House, with funding provided by the 
NPS, for rehabilitation as a Lincoln Museum;
    <bullet> Lacquisition of the Lincoln Train Station--where Lincoln 
arrived in Gettysburg--by the Borough of Gettysburg;
    <bullet> Lpreparation of an historic structure report and design 
documents for the rehabilitation of the Lincoln Train Station as a 
downtown information and orientation center;
    <bullet> Lcompletion of a Phase I Alternate Transportation Study, 
using NPS TEA-21 funds, for a potential shuttle system to connect the 
NPS museum/visitor center to downtown Gettysburg, with Phase II studies 
underway; and
    <bullet> Lagreement to use the first floor of the Wills House as a 
downtown welcome center by the Borough of Gettysburg, the Gettysburg 
National Battlefield Museum Foundation, and the Friends of the National 
Parks at Gettysburg, during the rehabilitation of the Train Station.
    Rehabilitation of Battlefield Landscapes--In July 2001, the NPS 
initiated this long-range project as called for in the approved park 
General Management Plan, which will rehabilitate areas of the 
battlefield where major battles took place so that they more closely 
resemble their 1863 appearance. As a result, visitors will be able to 
see the battlefield as the soldiers did at the time of the battle, 
understand the reasons that Generals made their decisions, and 
understand the experiences of the soldiers in carrying out those 
decisions. The landscape rehabilitation process will also improve 
wetlands, water quality and wildlife habitat throughout the 6,000-acre 
battlefield.
Partnership with the Gettysburg National Battlefield Museum Foundation
    Gettysburg's GMP calls for a major partnership with the non-profit 
Gettysburg National Battlefield Museum Foundation, for the fund-
raising, design, construction, and operation of a new museum and 
visitor center for the park. The project's goals are:
    <bullet> LProtection of the park's collection of 38,000 artifacts 
and 700,000 archival documents and historic photographs, one of the 
largest and most significant Civil War era collections in the nation. 
New facilities are needed to provide permanent protection, preservation 
and display of the collections.
    <bullet> LPreservation treatment of the Cyclorama painting to stop 
the continued deterioration of the largest and one of the most 
significant objects in the collection, a colossal painting illustrating 
Pickett's Charge, measuring 26 feet by 370 feet. The painting is 
designated a National Historic Object. New facilities are needed to 
provide permanent protection, preservation and display of the painting.
    <bullet> LProvision of high-quality interpretation and educational 
opportunities for park visitors, with new exhibits and broader 
interpretation that will provide visitors with an understanding of the 
Gettysburg Campaign within the broad context of the Civil War and 
American history, as mandated twice by the Congress.
        (Public Law 101-377, ``An Act to revise the boundary of 
        Gettysburg National Military Park,'' in 1990 directed the 
        National Park Service (NPS) to ``take such action as is 
        necessary and appropriate to interpret, for the benefit of 
        visitors to the park and the general public, the Battle of 
        Gettysburg in the larger context of the Civil War and American 
        history, including the causes and consequences of the Civil War 
        and including the effects of the war on all the American 
        people.'' )
        (The Department of the Interior fiscal year 2000 
        Appropriations: Joint Explanatory Statement of the Committee of 
        the Conference,'' Title I, p. 96. U.S. Congress, 1999, stated 
        ``...Civil War battlefields throughout the country hold great 
        significance and provide vital historic educational 
        opportunities for millions of Americans. The managers are 
        concerned, however'the Civil War battlefields are often weak or 
        missing vital information about the role that the institution 
        of slavery played in causing the American Civil War. The 
        managers direct the Secretary of the Interior to encourage 
        Civil War battle sites to recognize and include in all of their 
        public displays and multi-media educational presentations the 
        unique role that the institution of slavery played in causing 
        the Civil War and its role, if any, at the individual battle 
        sites.)
    <bullet> LRehabilitation of the historic landscapes of the Union 
battle lines of July 2 and 3, 1863, by removal of current visitor 
facilities and parking lots from the Union battle line at Cemetery 
Ridge, where 34 Union regiments fought and over 970 soldiers were 
killed, wounded, or captured during the Battle of Gettysburg.
    The current partnership agreement includes not only design and 
construction of the new facilities, infrastructure, roads and parking, 
but also the design and installation of the museum exhibits, land 
acquisition for the new complex, the restoration and relocation of the 
historic Cyclorama painting, removal of current visitor facilities and 
associated roads and parking, restoration of the historic landscapes of 
Cemetery Ridge, relocation of NPS collections, equipment and 
furnishings to the new complex, a $10 million endowment for the 
maintaining and operating the facility, and the Foundation's 
administrative and fundraising costs. The Foundation's fundraising 
campaign is now underway.
    The Foundation expects to break ground for the facility in early 
2004, with the project completed in early 2006. The current facilities 
will be demolished at that time and the historic landscape restoration 
will begin that same year.
Museum Foundation Progress To Date
    On June 30, 2000, following nine months of review through the NPS 
and the Department of the Interior, the Director of the NPS approved 
the General Agreement and the Fundraising Agreement with the Gettysburg 
National Battlefield Museum Foundation.
    In July, 2000, the Museum Foundation created the Gettysburg Museum 
Advisory Committee to advise the Foundation on the exhibit design and 
story line for the new museum. The advisory committee includes several 
nationally renowned scholars.
    On October 24, 2000, the Museum Foundation announced its selection 
of Robert C. Wilburn as its first President. Mr. Wilburn is the former 
President and CEO of the Colonial Williamsburg Foundation, former 
President and CEO of the Carnegie Institute, a two-term Cabinet 
Secretary under Governor Dick Thornburgh of Pennsylvania, and has 
extensive experience and qualifications in economics, education, 
preservation, and the non-profit world. In particular, Mr. Wilburn was 
successful in raising $150 million in donations and gifts for the 
Colonial Williamsburg Foundation during his tenure there.
    In November 2000, the Museum Foundation submitted its Fundraising 
and Financial Management Plan to the NPS. Following comments by the NPS 
and revisions by the Museum Foundation, the NPS approved the 
Foundation's fundraising plan on December 19, 2000.
    In April 2001, the Museum Foundation completed a Fundraising 
Feasibility study. Based upon interviews with over 60 individuals and 
potential supporters, the study identified 27 prospects with the 
capacity to give at the $5 million level and another 25 who could give 
at the $1 million level.
    The Museum Foundation initiated their public fundraising campaign 
for the museum and visitor center in January of this year. As of March 
7, 2002, the Museum Foundation has reported to the NPS that it has 
raised $8.38 million in donations, which includes a $5 million donation 
from Mr. Kinsley and a $2.5 million appropriation from Congress for the 
conservation of the Cyclorama. The museum partnership has been designed 
to work with 100% donated funds; we do not intend to seek from Congress 
any appropriated funds.
    In July 2001, after a nationwide search and competition, the Museum 
Foundation selected the design team for the new facilities. Cooper, 
Robertson & Partners of New York were selected as project architects, 
due to their highly praised work at Monticello, Charleston (SC), the 
Museum of Modern Art, the Brooklyn Botanic Garden, and the Lincoln 
Center in NYC. Gallagher & Associates of Washington, D.C., was chosen 
as the exhibit design firm, based upon its acclaimed exhibit designs 
for the Smithsonian Institute, the Museum of Jewish Heritage (NPC), the 
Canyon Visitor Center at Yellowstone National Park, and the Maryland 
Museum of African American History and Culture in Baltimore.
    On January 11, 2002, after six months of intensive work by the 
design team, the Museum Foundation and the NPS, the Foundation released 
the conceptual design for the new museum and visitor center. The site 
design was laid out to take maximum advantage of the natural topography 
and to protect natural ecosystems (such as wetlands). The exhibit 
design fully complies with the Congressional direction to provide 
interpretation of the Battle of Gettysburg within the context of the 
causes and consequences of the Civil War, and was approved by the 
Gettysburg Museum Advisory Committee. The architectural design is 
carefully suited to the rural agricultural landscapes of the Gettysburg 
area and has been widely praised by the public.
Cost and Space Comparisons
    For the record, I offer the following explanation of the changes in 
the size, scope and estimated cost on this project as provided to me by 
NPS personnel.
    The 1998 draft General Management Plan/Environmental Impact 
Statement, produced by the NPS, estimated that the new museum/visitor 
center facility would be approximately 118,000 square feet. The GMP 
also estimated that the Foundation would need approximately $39 million 
to accomplish the goals described in the GMP. In January 2002, based 
upon completed conceptual design and other factors, the Museum 
Foundation announced that the new facilities would be approximately 
139,000 square feet in size, and that the Foundation had established 
$95 million as its total project budget.
    Although the size of the new facility and the cost of the 
partnership have increased as a result of the completed conceptual 
design, none of the components or functions of the complex, as 
described on pp. 87-92 of the GMP, have changed. The proposed new 
museum/visitor center for Gettysburg NMP will provide visitor services 
and collection storage just as described in the GMP. The conceptual 
design for the complex does not add any new functions or components to 
the facility that were not discussed with the public and described in 
the GMP. As a result of these changes, NPS personnel believe the 
actions described in the GMP will be accomplished at a higher level of 
quality and commitment to the preservation of park resources and the 
enjoyment of park visitors.
    In accordance with the agreement between the NPS and the Museum 
Foundation, the NPS has complete review and approval authority over all 
elements of the design, construction, and operations of the new 
complex. In particular, the same NPS design, review, and approval 
processes will be followed for this project as are followed for all NPS 
construction projects funded by Congressional appropriations. As part 
of this review and approval process, the Museum Foundation will perform 
value engineering analysis for the proposed project, and will submit 
design documents to the NPS Development Advisory Board for review and 
approval.
    The GMP for Gettysburg NMP stated, in discussing the estimated 
costs of each alternative considered, that ``the costs provided in this 
appendix are indicative of the capital and operational costs of 
implementing the alternatives. They are provided so that reviewers can 
compare the general costs and benefits of the GMP alternatives. 
Specific costs for construction and operation would be determined for 
individual actions after detailed designs are produced.''
    This language is in conformance with NPS Special Directive 87-1, 
``Development of Costs Estimates for General Management Plans, 
Development Concept Plans, and Special Studies,'' which states:
        Section 604 of Public Law 95-625 requires General Management 
        Plans to indicate types and general intensities of development 
        including general locations, timing of implementation and 
        anticipated costs...The Service has made a commitment to OMB 
        and the Department that these estimates are used to compare the 
        cost of alternatives presented in the plans and not for 
        budgetary purposes...Estimates for advanced and project 
        planning to support a proposed construction item will be 
        provided separately.
    As articulated in the GMP, and in accordance with Special Directive 
87-1, the Museum Foundation and the NPS released revised cost estimates 
for the partnership project upon the completion of the conceptual 
design. In brief, the increase in the project's budget may be 
attributed to four general factors; a detailed project budget 
comparison and square footage comparison is attached to our testimony.
    General Inflation. In the four years since the NPS and the Museum 
Foundation signed the Letter of Intent in 1998 inflation has increased 
all costs across the board. In addition, the Museum Foundation has 
programmed its costs ahead to the proposed year of construction in 
2004, which the NPS had not done in the GMP. Increased costs due to 
inflation are approximately $7.6 million.
    Increased Space. During the process of completing the conceptual 
design, the project design team, composed of the NPS, the Museum 
Foundation, and the contracted architectural firms, proposed additional 
space. In particular, the Foundation agreed to expand the museum 
exhibit space through the addition of a transition gallery, provision 
for ``open storage'' of artifacts, and two interactive resource centers 
(data banks) for visitor use. By recommendation of the design team, 
``circulation'' space throughout the museum complex was increased 
across-the-board, in order to provide a more peaceful and reflective 
museum experience for visitors. Administrative space for Museum 
Foundation staff was added to the building's program. Design, 
construction, and exhibit installation costs increased, proportionally, 
with the increase in the building's envelope. The estimate of the 
increased cost over the GMP estimate is approximately $8.5 million.
    Enhanced Exhibits and Visitor Experience. Throughout the conceptual 
design process, the Museum Foundation exhibited an exceptional 
dedication to quality and in numerous cases, agreed to take on the 
fundraising burden of accomplishing more than is required by the 
partnership agreement. For example, the GMP requires the restoration of 
the existing Cyclorama Painting, and the plan expressed the hope that 
the missing historic diorama could be restored ``if possible.'' The 
Museum Foundation has not only made the commitment to restore the 
missing three-dimensional historic diorama which accompanied the 
original painting, but has also made the commitment to represent the 
sky which is missing from the original painting--both at considerable 
extra costs. In addition, the Museum Foundation made the commitment to 
include ``open storage'' areas in the new museum complex, which was not 
required by the project agreement, so that the public could see more of 
the park's extensive collection of Civil War artifacts.
    Other issues which the Foundation intends to address, which are 
enhancements beyond the original partnership agreements include: 
additional access roads, overflow parking, picnic facilities, walking 
trails, furnishings, film production, and additional costs in the 
remediation of the current visitor center site. The total cost of the 
additional enhancements and projects over the original GMP estimate is 
approximately $19.6 million.
    Fundraising and Endowment. The NPS estimates in the GMP did not 
include the cost of fundraising; rather, NPS estimates were based upon 
funds required to accomplish the partnership goals, such as land 
acquisition and construction. In keeping with standard practice in non-
profit fundraising, the Museum Foundation includes approximately $10 
million for administrative and fundraising costs in the project budget. 
Finally, above and beyond the requirements of the project agreement, 
the Museum Foundation informed the NPS that it would like to include an 
endowment of $10 million in the project budget, to be used for ongoing 
facility maintenance and preservation of the park's collections.
Future Activities
    With the conceptual design for the complex now complete, the Museum 
Foundation will concentrate heavily upon fundraising for the near 
future. In the meantime, the Foundation has released a Request for 
Proposals for a consultant to prepare the condition assessment and 
treatment plan for the conservation and relocation of the Cyclorama 
Painting.
    If fundraising is as successful as anticipated, the Foundation has 
announced that it plans to break ground for the new complex in 2004. 
Construction and installation of exhibits would be expected to take 
approximately two years, which would indicate an opening date in 2006. 
Following the relocation of NPS collections, furnishings and materials 
from the current visitor facilities into the new complex, restoration 
of the historic landscape of Seminary Ridge would take place in 2007.
    In accordance with Director's Order 21, ``Donations and 
Fundraising,'' the Museum Foundation may not break ground for 
construction until it has ``sufficient...funds in hand to complete the 
work so that it is usable.'' As a result, the Foundation will not start 
construction until the Foundation and the NPS are mutually assured that 
sufficient funds have been secured.
    Estimates based on an actual design, inflation, fundraising costs, 
and a number of enhancements that the Museum Foundation has agreed to 
fund, has increased the estimated cost of the project by $56 million. I 
understand the concerns the Committee may have about the foundation's 
ability to reach the new fund raising goal in a timely manner. While it 
is anticipated that groundbreaking may take place in 2004, let me 
assure you that construction will not begin until there sufficient 
funds in hand to complete the planned construction project.
    Thank you, Mr. Chairman, for this opportunity to testify and we 
would be most happy to answer any questions the Committee may have for 
us.
                                 ______
                                 

    [An attachment to Mr. Hoffman's statement follows:]
    [GRAPHIC] [TIFF OMITTED] 78322.001
    
    [GRAPHIC] [TIFF OMITTED] 78322.002
    
    [GRAPHIC] [TIFF OMITTED] 78322.003
    
    Mr. Radanovich. Thank you, Mr. Hoffman. We will wait until 
the second panelist is finished, then we will open up the panel 
for questions if you wish.
    Mr. Wilburn, welcome, and again please begin your testimony 
and keep it within 5 minutes if you can. Don't mind if I 
interrupt and let you know you are going too long.

STATEMENT OF ROBERT C. WILBURN, PRESIDENT, GETTYSBURG NATIONAL 
                 BATTLEFIELD MUSEUM FOUNDATION

    Mr. Wilburn. Thank you, Mr. Chairman. It is a pleasure to 
be here. I did want to point out just a bit of my background, 
because I think it becomes relevant in the discussion.
    Prior to assuming the presidency of the Gettysburg National 
Battlefield Museum Foundation, I was the President and CEO of 
the Colonial Williamsburg Foundation, and prior to that I was 
President and CEO of Carnegie Institute in Pittsburgh, and in 
both of those capacities had responsibility for some very 
significant fund-raising activities.
    A copy of my resume is attached to my written testimony. I 
would like both of those to be made part of the printed record.
    In his Gettysburg Address, Abraham Lincoln talked about a 
new birth of freedom, and I really wish to thank you for the 
opportunity to appear before you today to discuss what I think 
is a once in a lifetime opportunity for a new birth at 
Gettysburg.
    The Subcommittee is very familiar with the challenges that 
confront the Gettysburg National Military Park, and Senator 
Santorum spelled that out quite clearly: The aging facility 
that cannot accommodate the growing numbers of visitors each 
year, exhibitry that because of space and technology 
limitations cannot sufficiently meet today's visitor 
expectations, or our own educational objectives and a world 
class collection of Civil War artifacts that is in danger of 
deteriorating beyond repair because of inadequate facilities.
    I would like to spend my time today providing a report on 
our activities to date, our interactions with the Park Service 
and a progress report on our fund-raising. The Foundation was 
established to work in partnership with the National Park 
Service to restore and preserve this national treasure.
    In addition to construction of the state-of-the-art museum 
and visitor's center, the partnership has also designed to 
enhance roads and infrastructure, to acquire additional land to 
expand the park's buffer area, and restore and preserve 
portions of the battlefield and the park's collection of Civil 
War artifacts, including the historic Cyclorama painting.
    Since my appointment in October of 2000 I have devoted my 
time to developing a fund-raising and financial management plan 
while at the same time recruiting a board of directors and 
convening a design team to complete a detailed concept for the 
new building.
    In July of 2001, following a nationwide search, the 
Foundation, in partnership with the Park Service, engaged a 
renowned architectural firm and an experienced design team. For 
6 months the two firms, the Foundation and the Park Service 
collaborated on a conceptual design that you see before you 
that both blends into the rural Pennsylvania landscape, and 
uses state-of-the-art exhibitry to tell the Gettysburg story.
    We released these designs in January to wide public 
acclaim. The renderings of the design concepts are included in 
my testimony as Attachment 4. With conceptual design in hand, 
we now begin the act of fund-raising to break ground as planned 
in 2004.
    I know that there has been some concern expressed about the 
growth in the project budget since approval of the general 
management plan, but I do think it is important to distinguish 
between a preliminary estimate based on a very generalized 
plan, and a budget that reflects detailed conceptual plans as 
well as a careful study of the specific program elements needed 
to fulfill the project mission.
    The $95 million cost estimate includes some elements not in 
the GMP; For example, the $10 million endowment to provide 
ongoing support for building maintenance and preservation. 
There were also elements in the GMP for which the Foundation 
did not initially have responsibility.
    In the process of developing the project, we identified 
opportunities to significantly improve the visitor experience, 
which would also require additional funds; I think one of the 
best examples is, the cost of restoring the historic Cyclorama 
painting. That has increased from the original estimate of $1 
million to $5-1/2 million because we plan not only to restore 
the current painting, but also to replace parts of the original 
painting that have been lost over the years.
    Now, when this painting was first displayed in the 1880's 
the experience was said to be so realistic that grown men wept. 
To restore the Cyclorama's full integrity and ensure the 
maximum impact on its visitors, the missing elements, the sky 
and the diorama really need to be replaced.
    In short, we agreed to view the program enhancements like 
this not as fund-raising challenges but as opportunities. The 
Foundation was pleased to take on the responsibility of raising 
additional funds to make sure that the Gettysburg experience 
reaches its full potential.
    I should also note that our goal was entirely consistent 
with capital campaigns underway right now at other nationally 
historic significant history sites. For example, Monticello 
today is raising a hundred million dollars to build a new 
visitor's center and some related program needs.
    In Philadelphia, as you mentioned earlier, the new 
Constitution Center and Independence Hall visitor's center will 
raise some $225 million for that project.
    And Colonial Williamsburg, where I was formerly, is in the 
midst of a capital campaign for some $500 million. To date we 
have raised about 10 percent of our goal, but this reflects a 
very deliberate and orderly process. Experience tells us that 
fund-raising for large projects of this nature do not go very 
far until potential donors can see what they are supporting, 
they can see a design. People want to know what they are 
buying.
    Based on the response thus far to the conceptual plans, I 
can report that people feel very strongly about Gettysburg, 
feel very strongly about the need to restore it, are very 
excited about the plans that we have developed, and want to 
take advantage of the educational opportunities that are 
presented.
    Our aim now is to translate that sentiment into the 
necessary financial support, and we consider this really the 
opportunity of a lifetime to build something of lasting 
significance. But, more than that, preserving and enhancing the 
Gettysburg National Military Park is the responsibility that we 
all assume for future generations.
    And I think, if anything, the sense of responsibility for 
this has really heightened since September 11th. Gettysburg 
visitors today seem more eager for understanding the forces 
that have shaped America, enabled us to overcome the agony of 
civil war. If we make the most of this once in a lifetime 
opportunity, the restoration of the battlefield and the new 
museum and visitor's center will enable us to better fulfill 
our mission and ignite in our visitors a passion to learn.
    Thank you.
    [The prepared statement of Mr. Wilburn follows:]

    Statement of Robert C. Wilburn, President, Gettysburg National 
                     Battlefield Museum Foundation

    Mr. Chairman and members of the subcommittee:
    My name is Robert Wilburn and I am President of the Gettysburg 
National Battlefield Museum Foundation, a position I accepted in 
October 2000. Before joining the Foundation, I spent seven years as 
president and CEO of the Colonial Williamsburg Foundation and eight 
years as president and CEO of the Carnegie Institute. I also served six 
years in the cabinet of former Pennsylvania Governor Dick Thornburgh, 
first as Secretary of Budget and Administration and later as Secretary 
of Education.
    (A current resume is attached at (1).)
    I wish to thank you for the opportunity to appear before you today 
to discuss the partnership of the Museum Foundation and the National 
Park Service. The mission of the partnership is to tell the story of 
the Gettysburg Campaign, to restore and properly preserve the sacred 
ground--and the significance--of America's most revered Civil War 
battlefield, to preserve and exhibit Gettysburg's priceless collection 
of artifacts and archives, including the historic Cyclorama painting, 
and to give visitors a deeper, more lasting appreciation of what 
happened there. To accomplish this mission, the Museum Foundation will 
raise the necessary funds to restore significant portions of the 
battlefield and to design, build and operate new museum and visitor 
center facilities to enhance the Gettysburg experience for the nearly 2 
million visitors who come to the park each year.
    (Attachment (2) lists members of the Foundation Board of Directors 
who have been appointed as of the date of this testimony, the 
distinguished historians who are members of the Gettysburg Museum 
Advisory Committee, and the members of our National Council, who have 
agreed to work closely with us to support our fundraising and outreach 
efforts.)
    On a personal level, I appreciate your interest in our efforts to 
enhance the Gettysburg experience, and I am delighted to have the 
opportunity through this subcommittee to inform the Congress and the 
American people about our hopes and our goals. I also understand your 
determination that the funds are spent wisely and that the project 
moves forward in a manner consistent with the direction of Congress, 
which is the ultimate steward of our National Park System.
    I am humbled by the responsibility I have been granted to share in 
the preservation and enhancement of our national treasure at 
Gettysburg. I also am very proud of the Museum Foundation's efforts to 
date, our partnership with the Park Service, and the conceptual design 
plan for the park. I hope that after our discussions today, you will 
begin to share my enthusiasm for this project.
    Before responding to your questions, I would like to spend a few 
moments discussing our vision for the museum, the visitor center and 
the Gettysburg experience. I also would like to talk about its 
importance to America, especially at a time when our commitment to 
freedom and democracy is once again being put to the test.
The Vision and the Challenge
    For me, the opportunity to help improve the Gettysburg experience 
is the capstone of a gratifying career spent seeking out ways to excite 
and inspire people about their history. I believe strongly that the 
preservation of our heritage is a sacred responsibility. With my biases 
out front, I would like to share some of the vision and the solutions 
identified by the park service and the Museum Foundation, following 
several years of public study and discussion.
    In the Gettysburg Address, Abraham Lincoln talked of a ``new birth 
of freedom.'' Today, I believe the public-private partnership between 
the National Park Service and the Museum Foundation offers a once-in-a-
lifetime opportunity for a ``new birth'' for Gettysburg.
    The heart of our effort is the new Gettysburg museum and visitor 
center, which will enhance the resources of the park and enable us to 
protect the sacred ground of our most revered Civil War battlefield. By 
properly restoring and preserving the battlefield and the park's 
collection of artifacts, we can give visitors a deeper, more lasting 
appreciation of the events and the meaning of Gettysburg and help them 
connect that battle with America's continuing commitment to freedom 
around the world.
    I believe that Gettysburg's programs and exhibits need to invite 
exploration of our history. They must help us better understand the 
forces that shaped our national character, and move us to recommit 
ourselves to the principle that people can govern themselves.
    (Attachment (3) are op-eds I have written in the last year--for the 
Pittsburgh Post Gazette and the Civil War News--that describe in 
greater detail my sense of the importance of Gettysburg and the role it 
can play in exciting Americans about their heritage.)
    Let me tell you some of our goals:
    <bullet> LWe want to educate and to inspire; to promote learning by 
creating the kind of excitement that makes people thirst to know more.
    <bullet> LWe want people to leave Gettysburg with a deeper, more 
lasting appreciation of what happened there.
    <bullet> LWe want people to have a rewarding experience, and also 
to stir their emotions and enable them to imagine what it was like for 
the soldiers who battled on Gettysburg's fields and hills in the first 
days of July in 1863.
    <bullet> LWe want to create a connection with the events of 1863 
and to extend that connection to the town--its architecture, its 
history and its people. For the fullest understanding, visitors should 
know the town of Gettysburg as well as the battlefield.
    To achieve those goals, we need to respond to some very significant 
challenges.
    As you know, for years the park service has lacked the money and 
other resources to properly preserve the collections and artifacts in 
its possession at Gettysburg. Nor has it had the resources to provide 
visitors with the critical understanding of the battle and its impact 
on our nation.
    The battlefield park is being overwhelmed by visitors. Nearly 2 
million people visit Gettysburg every year. They come from every part 
of the world and, right now, they are not getting all that they might 
from the experience. There are simply too many people for the 
facilities that now exist.
    The visitor center is equipped to handle about 400,000 people a 
year--but almost five times that many come to the battlefield each 
year. The park has been pushed beyond the breaking point. If you visit 
Gettysburg during a busy season, one thing is certain--you will wait in 
line. You will wait to park, you will wait for tickets, and you will 
wait to tour exhibits.
    The issue is not just about size. The existing facilities do not 
meet the expectations of today's visitors: They do not take advantage 
of modern communications tools. They do not take account of what we've 
learned over the years about using our collections to educate and 
inspire.
    Nor do they provide proper protection for the Cyclorama painting or 
the other artifacts, manuscripts, letters and photos housed at the 
park. Until recently, these precious gems of our heritage were 
deteriorating each day, taking bits of our history with them forever. 
The facilities that housed these irreplaceable objects were woefully 
substandard. They lacked temperature and humidity controls, dust 
protection, and fire protection.
    Thanks to a grant from ``Save America's Treasures,'' the park has 
been able to move the collections into temporary facilities, so 
deterioration has been halted. But that's just a temporary solution. We 
must provide museum-standard, environmentally controlled space to 
ensure permanent protection, preservation and display.
    One of the most precious objects in the collection is the 26 foot 
by 370 foot Cyclorama painting, entitled ``The Battle of Gettysburg.'' 
Created in 1884, this magnificent painting is truly an interpretive 
icon of the 19th century. Unfortunately, the building in which it is 
currently displayed was not properly designed for this task. In 
addition, it has structurally failed, exposing the painting to excess 
humidity as well as structural stress. Painting conservators have 
warned us that if these conditions are not corrected, we face 
catastrophic separation of pigment from canvas.
    The visitor experience also is undermined by inappropriate siting 
of modern buildings and facilities. Because of these intrusions, 
visitors struggle to picture Gettysburg as it existed nearly 140 years 
ago. Facilities stand atop some of the most significant and fabled 
battlefields. The ground where the union repulsed Pickett's charge; the 
blood-soaked terrain of Cemetery Ridge; the greenery of Ziegler's 
Grove--are today occupied by buildings and parking lots. Buses and cars 
compete to park where soldiers struggled and died.
    The Foundation's partnership with the park service is designed to 
change all of that by raising the necessary funds to restore and 
preserve this national treasure for future generations. The partnership 
will:
    <bullet> LProvide the American people with a state-of-the art 
museum and visitor center.
    <bullet> LEnsure high quality interpretation and educational 
opportunities.
    <bullet> LRestore and fully protect the Cyclorama painting.
    <bullet> LProtect and provide for proper display of artifact 
collection.
    <bullet> LReturn significant portions of the battlefield, now paved 
over and covered with buildings, as close as possible to their state in 
1863.
    <bullet> LAcquire additional battlefield land to expand the park's 
buffer area and provide a ``decompression zone'' to give visitors a 
better sense of what Gettysburg was like 140 years ago.
    <bullet> LCreate a permanent endowment to support ongoing annual 
building maintenance and preservation of the park's collection.
A Progress Report
    That is the vision. As the subcommittee considers our plans, it 
also may wish to know more about the events that led us to this point, 
our interactions with the park service and the progress of our 
fundraising. In addition, I am aware of some concerns about the project 
budget and some apprehension that our reach may exceed our grasp. These 
are appropriate questions.
    Let me begin with a quick summary of the Museum Foundation and the 
partnership.
    The Museum Foundation was established in 1997 to address the needs 
of the Gettysburg National Military Park, as outlined in the park's 
General Management Plan. From the beginning, the Museum Foundation 
believed that a partnership with the park service would be the best way 
to address the challenges facing this historic treasure. Toward that 
end, we created an advisory board of noted Civil War scholars for 
assistance in developing the interpretive plan.
    In addition to a new museum and visitor center, the partnership is 
designed to enhance roads and infrastructure, acquire land, restore the 
Cyclorama painting, restore historic landscapes, preserve and enhance 
display of the park's collection of Civil War artifacts, and equip and 
furnish the new facilities. The Museum Foundation also agreed to run 
the new visitor center and, after 20 years, to donate the land, 
building and facilities to the park service.
    Since my appointment as Museum Foundation president in October 
2000, I have devoted much of my time to developing a fundraising and 
financial management plan and completing a fundraising feasibility 
study, while at the same time recruiting a board of directors and 
convening a design team to complete the detailed concepts for the new 
building.
    In July 2001, following a nationwide search, the Museum Foundation, 
in partnership with the park service, engaged the architectural firm of 
Cooper, Robertson & Partners, whose work includes Monticello, the city 
of Charleston, SC, the Museum of Modern Art in New York City and 
Lincoln Center. We also selected the exhibit design firm of Gallagher & 
Associates, which has provided similar services for the Smithsonian, 
the visitor center at Yellowstone National Park, the Museum of Jewish 
Heritage and the Maryland Museum of African American History and 
Culture in Baltimore.
    For six months, the team--composed of representatives from the 
Museum Foundation, the park service, the architect and the exhibit 
designer--met frequently to develop a conceptual design for the 
building that, on the one hand, blends into the rural Pennsylvania 
landscape while at the same time uses state-of-the art exhibitory to 
tell the Gettysburg story. In January we released the conceptual design 
for the facilities. The design has received wide public acclaim.
    (Renderings of the conceptual design for the building, as well as a 
ground floor rendering of the building interior, are at Attachment 
(4).)
    We also have identified the first nine members of our board of 
directors and are involved in discussions with a number of prominent 
individuals about joining this group. Our goal is a well-rounded and 
diverse board with appropriate interests and expertise. The board, as 
well as the advisory committee of historians, participated in the 
review of our conceptual design plans.
    With the conceptual design in hand and an initial group of 
directors in place, we are now moving into active fundraising and plan 
to raise sufficient funds to allow for groundbreaking as planned in 
2004.
Gettysburg Community Embraces the Project
    However worthy our goals for the park, we cannot truly fulfill our 
objectives without the involvement and support of the citizens of 
Gettysburg. With that in mind, we continue to keep interested local 
citizens, community and business leaders, and public officials in the 
greater Gettysburg area informed about our progress, and to solicit 
their input. Our board and advisory committees include representatives 
from the community; we also are an active partner in the Main Street 
Gettysburg coalition. We view the project for which we have 
responsibility as an important component of a variety of programs and 
activities underway to enhance the Gettysburg experience for our 
visitors.
    One cannot fully experience the battlefields without also 
experiencing the town, which itself was a site of military action where 
soldiers camped, fought and died. We want to extend visitors' stays in 
Gettysburg, to encourage them to experience the town and to return for 
repeat visits. We support the park service's plans to develop an 
improved transportation system that will reduce traffic backups and 
move visitors more easily and efficiently from the visitor center to 
the town and back.
    I am pleased to report a positive response from the people of 
Gettysburg, who I believe have grown more enthusiastic as our plans 
have taken shape. Just last week we had a very positive public meeting 
in Gettysburg with members of the park's Advisory Commission. This 
meeting gave us an opportunity to answer many questions posed by 
commission members and residents, and I was pleased that we continued 
to receive only favorable comments about our plans.
Project Details Shape the Budget
    There has been some concern about growth in the project budget 
since Congressional approval of the General Management Plan (GMP) in 
2000. It is important to recognize, however, the distinction between a 
preliminary estimate based on a very generalized plan and a budget that 
reflects detailed conceptual plans as well as careful study of the 
specific program elements required to fulfill the project mission.
    The $95 million cost includes some elements not in the GMP number--
for example, the $10 million endowment to provide ongoing support for 
building maintenance and preservation of the collection. Administrative 
and fundraising costs, which had been netted out in the GMP, now are 
explicitly accounted for.
    There also were elements in the GMP that the Museum Foundation 
supported but for which we did not initially have responsibility. In 
the process of developing the project, we identified opportunities that 
would significantly improve the visitor experience but which would also 
require additional funds.
    For example, the cost of restoring the historic Cyclorama painting 
has increased as the Museum Foundation pledged to not only restore the 
current painting, but also to replace parts of the original painting 
that had been removed and lost over the years. When the painting first 
was displayed--in the 1880s--the experience was said to be so realistic 
that grown men wept. To restore the Cyclorama's full integrity and to 
ensure maximum impact on the visitor, the missing elements need to be 
replaced.
    Another exciting element of the visitor experience will be the 
inclusion in the museum and visitor center of open storage space--
something not originally anticipated--that will allow visitors to see 
more of the park's world-class collection of artifacts.
    The costs for offsite improvements, such as overflow parking and 
restoration of adjacent lands, will add $4.4 million that was not 
originally budgeted but which will enhance the visitor experience. The 
Museum Foundation also has assumed responsibility to raise $1 million 
for an interpretive film and $5.5 million in building and exhibit fit-
out costs that otherwise would have been passed on to visitors.
    In short, the Museum Foundation agreed to view these program 
enhancements not as fundraising challenges but as opportunities. We 
were pleased to take on the responsibility of raising additional funds 
for these enhancements to make sure the Gettysburg experience reaches 
its full potential.
    I should also note that our campaign goal is entirely consistent 
with capital campaigns underway right now at other nationally 
significant historic sites. Monticello, home of Thomas Jefferson, is in 
the midst of a campaign to raise $100 million for a new visitor center 
and other program needs. In Philadelphia, the new Constitution Center 
and Independence Hall Visitor Center, have as their campaign goal $225 
million. And Colonial Williamsburg is in the midst of the first capital 
campaign in its history, with a goal of $500 million.
Fundraising Update
    To date, we have raised about 10 percent of our goal. This reflects 
a very deliberate and orderly approach.
    We first established a fundraising plan and conducted a donor 
prospect assessment to measure our opportunities and refine our 
fundraising strategy. Next we identified the architect and exhibit 
design team, and completed conceptual design concepts. Experience shows 
that fundraising for large projects of this nature do not get very far 
until donors can see a design and renderings. People want to know what 
they are supporting.
    We have identified many potential donors and had preliminary 
conversations with a number of them. Election of board members also has 
been an important step in this process. Now, we are ready to go. Based 
on the response to the conceptual plans, I can report that people feel 
very strongly about Gettysburg and the need to restore it and take 
advantage of the educational opportunity it presents. Our goal is to 
translate that sentiment into the necessary financial support.
A Classroom of Democracy
    We consider this effort the opportunity of a lifetime to build 
something of lasting significance. But more than that, preserving and 
enhancing the Gettysburg National Military Park is a responsibility 
that we all assume for future generations. This sense of responsibility 
has been heightened since September 11. In that regard, I should note 
that the renewed spirit of patriotism that we all have seen emerge from 
that tragic day is also visible at Gettysburg. Park guests seem more 
contemplative and more eager for understanding of the forces that have 
shaped America and enabled us to overcome the agony of Civil War.
    If we make the most of this once-in-a-lifetime opportunity, the 
restoration of the battlefield and the new museum and visitor center 
will enable us to better fulfill our educational mission and ignite in 
our visitors a passion to learn. By bringing to life the experiences of 
1863, we can help Americans better see the links between the struggles 
of the Civil War and the challenges we face today.
    Nearly 140 years ago, President Lincoln came to Gettysburg to honor 
the dead. On that occasion, he urged Americans to be ``dedicated here 
to the unfinished work'' of freedom and democracy. Today, another 
generation has picked up that torch. Preserving the battlefield of 
Gettysburg and making it a classroom of democracy is one way to advance 
the unfinished work that Abraham Lincoln laid before us.
    Thank you.
                                 ______
                                 

    [Attachments to Mr. Wilburn's statement follow:]
    [GRAPHIC] [TIFF OMITTED] 78322.004
    
    [GRAPHIC] [TIFF OMITTED] 78322.005
    
    [GRAPHIC] [TIFF OMITTED] 78322.006
    
    [GRAPHIC] [TIFF OMITTED] 78322.007
    
    [GRAPHIC] [TIFF OMITTED] 78322.008
    
    [GRAPHIC] [TIFF OMITTED] 78322.009
    
    [GRAPHIC] [TIFF OMITTED] 78322.010
    
    [GRAPHIC] [TIFF OMITTED] 78322.011
    
    [GRAPHIC] [TIFF OMITTED] 78322.012
    
    [GRAPHIC] [TIFF OMITTED] 78322.013
    
    [GRAPHIC] [TIFF OMITTED] 78322.014
    
    [GRAPHIC] [TIFF OMITTED] 78322.015
    
    Mr. Radanovich. Thank you, Mr. Wilburn. I do have a 
question for Mr. Hoffman. Can you tell me regarding the 
requirement that all of the cost of the building be raised 
before the construction can begin, to my knowledge the 
visitor's center is separated somewhat from the current 
operation of the Park. So it is really not a requirement to 
have the money so that you can go in and construct in a short 
amount of time, to allow the minimum amount of disruption is 
not the issue in this.
    Is it more the requirement to have all the money raised 
more because of the price tag of the project and wanting to 
make sure that the fund-raising goals are going to be achieved 
as the reason why the requirement that all of that money has to 
be raised first?
    Mr. Hoffman. I believe it is Park Service policy to have 
all of the money raised before a project is begun.
    Mr. Radanovich. OK.
    Mr. Hoffman. I think the important distinction here is that 
we need to distinguish between the $95 million that is the 
total fund-raising goal at this time and the part of that $95 
million that is actually associated with the construction of 
the visitor's center and the related facilities.
    Mr. Radanovich. So clarify for me, the Park Service will 
require the full 95 million raised, or give me a number.
    Mr. Hoffman. 65 million.
    Mr. Radanovich. And does the Park Service in the plan give 
a definite time that that money, the 65, has to be raised, 
datewise?
    Mr. Hoffman. No. I believe that you have a time line in 
your written testimony.
    Mr. Wilburn. What we have done in our financial management 
plan, we have a plan in which the funds would be raised over a 
2-year period, which would enable us to start construction in 
the year 2004, and we are pretty much on that plan right now. 
But of course the real big push comes over the next 12 to 18 
months.
    Mr. Radanovich. Right. But the Park Service does not say 
that you will have this raised by this date, and on and on and 
on, right?
    Mr. Hoffman. No, sir. I don't believe there is a precedent 
for setting an end line on this. Obviously we need to be 
prudent and responsible, that if there is only 10 or 25 percent 
of the money raised in a year and a half, we have got to sit 
back and seriously question the viability of this project. At 
the same time, I wouldn't want to see the project stopped if 
they had $60 million in the can on 2004 and some other 
prospects just down the road. And so it is very difficult to 
say at this point in time what is your drop dead date and what 
is your go forward date.
    But we are somewhat in this case reliant upon the 
professional experience of Mr. Wilburn and the abilities of the 
Foundation board to raise the money.
    Mr. Radanovich. It sounds like you have got, Mr. Wilburn, 
the date set and your job is cut out for you already. You have 
got a calendar.
    Mr. Wilburn. Right. We have got a calendar. We have a time 
plan to raise the funds. But it is--in this business, and I 
know you have had experience with this with Yosemite, it is 
very difficult to set a specific date, a specific number of 
dollars, because you are working with individuals who are 
making major commitments, and you really do have to adjust 
somewhat to their schedule rather than your own.
    But we certainly have a management plan, a financial 
management plan and goals that we need to meet.
    Mr. Radanovich. Thank you. Donna.
    Mrs. Christensen. Thank you, Mr. Chairman. I guess I would 
start with Mr. Hoffman, but either of you can answer. We still 
have some concerns about the fact that the plans were scaled 
back, the cost was scaled back, prior to the public comment 
period, and the fact that it was increased significantly since.
    Doesn't the Department or the--that seems rather unusual 
that after public comment period on a particular project the 
plans would be to go ahead with the project that was greater in 
scope, size and cost. Doesn't the Department of Interior and 
the Park Service have any concerns about proceeding on 
something that the public really didn't have a chance to 
comment on, when there was so much opposition, even on the 
scaled-back plan?
    Mr. Hoffman. I would defer to David on that one. I was not 
there doing that planning process.
    Mr. Hollenberg. Good afternoon. For the record my name is 
David Hollenberg, H-o-l-l-e-n-b-e-r-g, and I think I would like 
to echo what Mr. Wilburn has said, is that the project--and 
what Mr. Hoffman has also said--is that the project is at the 
moment in conceptual design.
    You can take a closer look at the drawings there. We don't 
believe that the design of the project that is represented in 
those drawings in any fundamental way, in any way, alters what 
the GMP said would be the components of the project.
    There are areas of expansion. Attached to Mr. Hoffman's 
written testimony is a two-page summary of what it is that 
makes up the difference between 39 million and 95 million, and 
also what it is that makes up the difference between the 
original square footage in the GMP and the current square 
footage.
    With respect to the square footage, you will see that there 
are three or four components that have increased cost. All of 
them are based on a collective perception of a better visitor 
experience; For example, open study storage so that a lot--more 
artifacts can be visible to the public than putting them behind 
closed doors; increased circulation at certain choke points in 
the design; interactive data banks that add square footage. 
There is a chart with the testimony that goes through what it 
is that has caused those increases in square footage, and we 
are convinced that those are in the public's interest to do 
that.
    The components that were removed during the public process 
that made the project go from roughly 140,000 square feet to 
118,000 square feet have not been put back in the project; 
three shops and the IMAX Theatre are all gone, and the 
cafeteria--reduction in size of the cafeteria.
    Mrs. Christensen. The other concern is that we had very 
detailed drawings and detailed information to justify this back 
in 1999. I understand what you are saying that you have made 
some changes that you think would better accommodate the public 
and that some of the things that we were concerned about were 
taken out.
    But in 1999 we thought that we had some very detailed 
information about why it would cost so much less, and I still 
have some concerns about that, and I also have concerns 
remaining about the impact on the economy of the surrounding 
community. The cost and the maintenance of the facility is 
quite high. That means that the facility, the visitor's center 
is going to have to generate a lot of money, and to do that you 
are really going to have to be in competition with the 
community.
    Mr. Wilburn. One of the things that I think that you have 
to recognize is that today Gettysburg, unlike some of--has two 
million visitors a year that come to Gettysburg and come to the 
visitor's center. It is just an enormous base on which to 
build. I think that the economic impact on the community is 
going to be dramatic.
    The studies that were done when the GMP was being put 
together I believe showed a 30 percent increase in--$23 million 
positive impact on the community from the visitor's center. I 
think it is even going to be greater than that. I think, as was 
pointed out earlier in some of the comments, the real thing 
that is so important to getting the economic impact on the 
community is when you can get more and more overnight stays. 
And the average stay now in the Gettysburg area is in the--I 
believe it is the 6 to 8--4 to 8-hour time range. It is just 
getting to the cusp of where you are going to be able to have 
everyone staying a day longer.
    If we had the time to go into the exhibit plans and into 
the interpretative core of this building, you would see all of 
the different ways in which we can get people excited about the 
Battle of Gettysburg and inspired about the causes and 
consequences of the Civil War. We are going to not only have 
people come back again and again to use those facilities, but 
we are going to increase the length of stay, and that is going 
to have a tremendous impact on the community, a very positive 
impact on the community. I am totally convinced that this is 
going to benefit the businesses in Gettysburg to a great 
extent.
    Mrs. Christensen. Thank you. I see that my time is up. I 
might have some further questions. But I will give my 
colleagues a chance and I will come back if we have a second 
round.
    Mr. Radanovich. Thank you very much. As much time as you 
wish.
    Mr. Souder.
    Mr. Souder. We are used to political fund-raising where we 
have a plan and we can't go past Election Day. We tend to like 
very specific timetables.
    I wondered in this plan, if either the Park Service or the 
Foundation has any flexibility built into this, if it would 
increase this cost--and part of the reason the cost went up 
before is inflation. Have you factored that in in a projection 
if it goes longer?
    Mr. Hoffman. I believe the $95 million figure includes 
inflation projections for the cost of the facility based on the 
conceptual plans up to 2004.
    Mr. Souder. So if it went longer it would be an additional 
cost?
    Mr. Hoffman. No. If it went longer than that, yes, 
depending on what the rate of inflation is.
    Mr. Souder. Does the Park Service have a reviewprocess--it 
was very interesting what you said, because that was a very 
logical management thing to say, which is if they are at 5 
million in 2 years, you go, hey, this isn't going to go. If 
they are just a little bit short, that is another matter.
    Do you know, is there any kind of rule of thumb here, and 
then would there be a review of what the inflation might be in 
the intervening period?
    Mr. Hoffman. I don't know that there is a rule of thumb on 
that. I think there are so many other factors that work into 
it, Mr. Congressman. You expressed an interest in possibly an 
appropriation of Federal dollars to help this if all of the 
fund-raising wasn't done. And so the climate for that kind of 
an appropriation is a factor that you would have to look at at 
that time. You would have to look at what the potential funders 
were saying if they decided not to fund the project.
    There are a lot of points in this process where you have to 
review your plan and see how you are doing compared to your 
plan and make some executive decisions on either adjusting your 
plans, stopping the plans, or continuing forward with the plan. 
And there are so many potential circumstances that may come up, 
it is almost impossible to forecast how that might proceed.
    Mr. Souder. It is important, and I think in the dollars, 
because of the gap from the first proposal, which was sketchy, 
to this one there is more nervousness than in many others. The 
scale of this compared to Colonial Williamsburg and Monticello, 
when you put it in that context it is one thing. But this was a 
jump, as you acknowledged. And I wonder in a general management 
plan, and understand I am enthusiastic about all of the 
changes. I think having a quality project will actually help 
you raise quantitatively an exponential increase in funding, 
greater than a lesser project would have--it would been harder 
to raise money possibly for a $40 million project than it will 
for a 90 if you capture the imagination. And I understand the 
fund-raising concept. If you have a lousy candidate you can't 
raise as much money if you have a good candidate in politics.
    Mr. Souder. But at the same time, it is a little bit 
disconcerting, not necessarily with this project but in others 
with the National Park Service, clearly there were lots of 
conflicts in some of the hearings about location. This did not 
change location. This did not change kind of the fundamental 
conflicts we had on was it going to knock out and be the 
largest bookstore in the East Coast and knock out every 
bookstore in the area, was it going to have an IMAX. Those 
things were not changed, but there were some things changed. 
Why would not there have been a hearing just on the changes? 
Nobody wanted to refight the last battle at Gettysburg, so to 
speak, but it just seems as a course that when there is this 
dramatic change in dollars and in some goals, that there would 
have been at least some kind of an ability to have public 
comment and at least stay focused on the theme, the changes, 
which would have been cost, and the additional cost to the 
Cyclorama painting, so that the community would have felt like 
they had an opportunity and could not claim that there was not.
    Mr. Wilburn. Sir, we have had many public sessions, in 
which we have described all of the changes and the costs. Just 
last week there was the official Gettysburg Advisory Committee 
that met in Gettysburg and we presented the plans, the cost, 
the changes, and there was not one single negative comment made 
at that meeting. Everything was very positive.
    Mr. Souder. What I would like to say, and I am not from an 
area that has a lot of public lands, and I am not--none that 
are particularly Federal, and I don't have a lot of the same 
vested interests. But I do know that many Members of Congress, 
and I, as I have seen it some from the Federal Government, I 
don't believe that this plan is weak, I believe it is 
incredibly strong. There is nothing to fear from public 
hearings. When you have public hearings you have some people 
who are against things and some people who are for things. I 
think that over time the majority of the Gettysburg community 
and the county and the area around it support this. That has 
never been the question.
    But there is a difference between a public meeting where 
you are explaining what you are doing and a public meeting 
where people feel they actually have an ability to change a 
policy. The idea of the government management plan hearing is 
that people may or may not actually be able to change it there, 
but at least there is a participatory aspect to it. I think it 
is the type of thing that we have to watch as a parks policy.
    We are going to get into these visitor center questions 
increasingly with private sector funding. Mesa Verde 
desperately needs a new visitor center. It is going to come up 
at Mesa Verde too, and it is going to come up at other parks, 
too.
    I would strongly encourage the Park Service. I don't think 
there is anything to be ashamed of. You have been aboveboard. 
It is out there. But by not letting people have one more crack 
at it until they are basically exhausted, and actually listen 
to what they have to say, we are going to have these problems 
in other parks as well. It was such an extraordinary dollar 
jump, that is really the major thing. It wasn't so much policy 
jumps, but the dollar jump which may have been an error in the 
original projections because I didn't see this kind of drawing 
in the plan. I saw a blueprint with a conceptual with a 
developer who was actually trying to do a public service, but 
didn't have a dream attached to it, other than he wanted a new 
visitor's center. But it does seem to be something that in the 
Park Service policy, that this is going to be something that 
dogs us if we don't address it.
    Mr. Hoffman. Let me, if I may, take a stab at what I 
believe I heard several questions to be. One is at what point 
do you decide that this is a significant enough change toward 
reopening the general management plan.
    Mr. Souder. Not necessarily reopening, but adding 
additional discussion.
    Mr. Hoffman. Right. It is by definition a general 
management plan and, as such, puts out general guidelines, 
general concepts of how the park unit will be managed over a 
coming period of time. As such, it has to have some flexibility 
to allow for changes that occur with time.
    It is the belief of the Park Service that the principal 
components of this thing remain the same as those that were 
articulated in the general management plan and, therefore, 
within reasonable adjustment of the square footage of those 
components and the change in cost because of acquiring new, 
more accurate information, do not constitute enough change to 
warrant going back and revisiting the whole general management 
plan issue.
    The role of public input, NEPA provides for public input, 
but it is not the only basis on which the administration is 
required to make decisions. There are a host of laws that we 
must remain in compliance with. Much like you are elected to 
represent your constituency, you have to make decisions based 
on the facts that you know as well as the input from your 
constituency, and sometimes I am sure you find yourself going 
home and getting dogged on by your constituents who don't think 
you have listened to them.
    Mr. Radanovich. Never happens.
    Mr. Hoffman. I didn't think so. There is a provision within 
NEPA that calls for going back and redoing an environmental 
impact statement if there is one of two things that occur. One 
is significant new information that would lead to a change in 
the final decision, and the other is lack of public input.
    When I indicated in my written testimony and my oral 
testimony that we would review the GMP, we will be reviewing it 
to make sure we are consistent with it and to see if there has 
been significant enough new information to warrant that. 
Typically, when there is significant enough new information, 
you hear about it from a large constituency out there. You 
know, a State, a city, an environmental organization, a user 
group comes to you and says, look, you didn't consider this, 
and then you have to reopen it. The Yellowstone snowmobile 
issue is a classic example of that.
    Last, I heard some concerns about what is the final gate on 
this? I mean where is the final review to decide whether this 
is an excessive expenditure of dollars, if we are building the 
gold-plated castle that is a monument to some person's ego, or 
are we billing an appropriate facility?
    The Park Service has what is called the Development 
Advisory Board. It was a process put into place with some input 
from Congress in response to the famous outhouse at Delaware 
Gap, and that board will have the final say on whether the 
final plans are consistent with usual and customary 
construction costs; is it an exorbitant facility given the 
space it is on, given the park it serves, those kinds of 
things. That will be the final authority that comes in and 
decides whether--well, ultimately I suppose you folks will be 
the final authority, but if it goes as normally goes, that 
would be the final authority that would put their stamp of 
approval or disapproval on this project.
    Mr. Souder. Thank you very much. I have to go to catch a 
plane, but I wanted to thank you. I think this is a great 
project for Gettysburg, for Pennsylvania, and for the Nation. I 
will continue to ask questions, and thank you very much.
    Mr. Radanovich. Thank you, Mr. Souder. Mr. Santorum?
    Senator Santorum. Thank you.
    I would like to refer to page 15 in your testimony, because 
I just think for the edification here we just need to go down 
and look at the different elements of what the GMP proposed and 
what the current state of play is. I would just like to review 
several of the things that sort of came out of these public 
hearings, because I was very much directly involved in it.
    If you look at the proposal, the first column, it says 
proposed 1997 SF. If you look at the IMAX Theater, National 
Geographic Store, Civil War Arts and Craft Gallery Gift Store, 
all of them had significant square footage, all of them were 
taken out of the general management plan, and they are still 
out. They were taken out for one reason: the people in 
Gettysburg didn't want them. They saw them as competition, they 
saw them as commercialization, even though in my testimony and 
in my advocacy I advocated strongly for an IMAX Theater. I 
believed very strongly there should be an IMAX Theater, and 
John Latcher heard me say this 100,000 times.
    When the Cyclorama was built in the late 1800's, it was a 
state-of-the-art interpretive thing. When the electric map was 
built, it was state-of-the-art interpretive. We are now 
building the visitor's center, it is not completely state-of-
the-art interpretive.
    I just frankly have a problem with that. So you are going 
to hear a comment from me, and I think you will hear it from 
others in Pennsylvania who would say we need more, not less, 
than what they are doing here. But they were taken out directly 
because the public in Gettysburg, in the Borough of Gettysburg 
did not want these "commercial aspects" at the visitor's 
center.
    If you look from the GMP to the current status, and you 
look at the increases in square footage, none of them are about 
the controversial things that were taken out, they are still 
out. All of them, at least from my understanding, the biggest 
chunk is administrative space. There was never any controversy 
about how much room we were going to provide for the Park 
Service and their activities. I don't think that is a 
controversial thing, but there should be adequate space for the 
Park Service to do what they need to do from an administrative 
capacity. That is 7,000 square feet.
    If you look at the museum in circulation and again, my 
understanding is, and I would be happy to get this answered, 
that is all because of just flow, because of bottlenecks and 
problems, they didn't see this from an architectural point of 
view of having a museum, which I believe is this area here in 
the orange. You needed a wider space to accommodate peak 
periods of time in which there would be tourism and you just 
needed more space to get people through.
    Is that the reason for the increase in space? There is 
nothing different in quality of what you are doing, is there?
    Mr. Wilburn. No. In fact, as you are mentioning, the 
circulation space increased enormously because what we did is 
models where we actually flowed people through the museums to 
see how much space we needed for the museum, and we needed more 
circulation space, and that was the single biggest increase in 
what happened in the planning of this building.
    Mr. Santorum. From looking at it here, the space increased 
by about 21,000 square feet, and if you take administrative and 
museum circulation, that is 20,000.
    Mr. Wilburn. Yes.
    Mr. Santorum. So yes, there was an increase in square 
footage, but it was basically to accommodate more 
administrative capacity and better flow for the museum, which I 
don't see as a change in scope at all to what the general 
management plan laid out in 1999. So I understand that there 
may be a reason to brief the public on the new, maybe the 
differences in what was proposed as far as square footage, but 
clearly, my reading of this is you are completely consistent 
with the 1999 GMP in what you have come forward with in this 
architectural design.
    Mr. Hollenburg. Well, of course I agree with that.
    Senator Santorum. Good. Right answer.
    Mr. Hollenburg. We have tried very hard to remain 
consistent with the GMP and we will continue to try very hard 
to remain consistent with the GMP. I am wishing Congressman 
Souder had not left because I wanted to add to what Paul had 
said. The nature of his question suggests to me that we are not 
doing as good a job as we need to do in explaining that the $90 
million price tag is not the result of suddenly doing a very 
dramatically different building, it is a result of a partner 
who has taken on much more than was initially anticipated from 
other project components, either things that were not 
anticipated that the partner would do, or recognitions by the 
partner that things that we wanted to do could be a lot better.
    The Cyclorama is a good example of the latter. Doing site 
work off the site--well, the site plan isn't up anymore, but 
the left-hand side of the site plan is not on their land. They 
are going to do all of those site improvements for us. So they 
have taken on project components that were always part of the 
plan, but were not anticipated to be part of the 
responsibilities.
    Senator Santorum. Can you explain the offsite things that 
you were doing, because I am not too sure that any testimony 
went over that?
    Mr. Wilburn. This line here represents the land that is 
owned by the foundation here, and this is actually National 
Park Service land, which is called the Fantasyland site. 
Actually, as part of our planning, we have planned how to 
develop--.
    Senator Santorum. Could you orient us to where the 
battlefield is?
    Mr. Wilburn. The famous battlefield goes right like this, 
OK? The battlefield line. The current visitor's center is here. 
This is Taneytown Road, this is Baltimore Pike. This is where 
you would enter onto the site. This is the land that is owned 
by the foundation and the place where the building will be 
located.
    In developing the plans, it became apparent that it would 
really be a much better development if we included the 
Fantasyland site owned by the National Park Service as well as 
the land owned by the foundation. So what we have done is we 
have developed the plans to use both parcels of land and also 
to add parking on both parcels of land.
    This actually added about $4 million in cost to the 
project. But we thought it was important to have the experience 
be right, to do it right, and that is why we agreed to develop 
both parcels of land at the same time. And to have adequate--
you will see here there is two complete circulation systems, 
one for buses, one for automobiles. We have to handle up to 90 
buses a day at Gettysburg. We actually have two bus circulation 
systems, one that actually runs shuttle buses into town, and 
onto the battlefield, and another bus circulation system for 
tour groups, 60 bus parking spaces, three times as much parking 
than exists now.
    The other thing that really added to the cost of this 
project, there currently are two ponds that exist in here that 
were put in for an amusement park that was there as late as the 
1970's, in going back to the historic landscape and restoring 
the stream bed that was there originally. We are also working 
in the wetlands, little small wetlands that exist here, and you 
will notice very heavily treed areas to make sure that it is 
really done right and very environmentally sensitive. Of 
course, all of this adds a considerable amount to the cost. But 
it is important, we believe, to do the project right.
    Again, as I keep saying, it is a once-in-a-lifetime 
opportunity to do it and we want to make sure that it is done 
appropriately.
    Mr. Radanovich. Thank you. Could I see the site map for the 
construction of the center? This one here. In the additional 
square footage that is being proposed, I guess it is 21,000, 
22,000 square feet, in the bottom of the drawing is the dining 
room.
    Mr. Wilburn. Right. That is the same size as it was.
    Mr. Radanovich. That is the same size.
    Mr. Wilburn. The bookstore museum store is the same size. 
What has changed--.
    Mr. Radanovich. Sir, just a second. If I may ask, the 
terrace that is next to the dining room, is that a proposed 
addition, or is that in the project as well?
    Mr. Wilburn. Yes, that is in the project.
    Mr. Radanovich. All right.
    Mr. Wilburn. Yes.
    Mr. Radanovich. OK. That is the only other question I had.
    Any other questions from anybody?
    Mrs. Christensen. Yes, Mr. Chairman.
    Mr. Radanovich. Please.
    Mrs. Christensen. Mr. Hoffman, what is the most expensive 
visitor's center that we have? Do you have something that can 
give me a frame of reference as to how much other visitor's 
centers cost? Can anybody come close?
    Mr. Hollenburg. Well, first of all, let's remember this is 
a visitor's center with a museum, with a painting, and the 
painting in and of itself takes up 12,000 square feet, so we 
are not really apples and oranges.
    But the Constitution Center, which I am very much involved 
in, is a $180 million project, including a $40 million 
endowment. The construction component of that is about $100 
million. Just the hard costs of that project are about $100 
million. Down the street from it is the new visitor's center 
that just opened last November for Independence National 
Historic Park, which is about roughly a 50,000 square foot 
building and the cost of that facility was $40 million, hard 
and soft costs.
    Mrs. Christensen. How is that funded?
    Mr. Hollenburg. The new Independence Visitor'S Center was 
funded by a public/private partnership. There is not a dime of 
Federal money in the new visitor's center. It is city of 
Philadelphia, the Commonwealth of Pennsylvania, the Annenberg 
Foundation, the Charitable Trusts, and the Knight and Connelly 
Foundations are the six donors to that project. The 
Constitution Center, because it is a bigger project, has a 
bigger array of givers and does have Federal money in it, but 
it also has City, Commonwealth, lots of foundations, lots of 
individuals.
    That, too, is a project that may be an interesting example 
in that the construction there did not begin until all the 
construction money was in hand, but even during construction 
they have raised their fund-raising targets so as to have a 
bigger endowment when they opened, and I think they will be 
successful in doing that, and that is in everyone's interest of 
course.
    Mrs. Christensen. The fund-raising over the last year, 
maybe a little over a year, has been about maybe $800,000 in 
private funds?
    Mr. Wilburn. No, ma'am. We have--one thing I would like to 
get straight, there is a misstatement, I don't know who 
prepared this statement from the briefing paper, but there is 
an absolute error in fact in there. It says in here that to 
date Mr. Kinsley has lent money to the project. That is not 
true. He has made an outright gift from the Kinsley Family 
Foundation of $5 million to the project. That is not a loan, 
that is an outright gift from the Kinsley Family Foundation. 
That error keeps reappearing, and we really would like to get 
the record straight on that.
    We have raised to date in actually documented funds $8.4 
million in terms of actual commitments, and in writing and 
actual cash in hand. We have verbal commitments of much more 
than that, but those are the actual, in-writing commitments at 
this point, is $8.4 million.
    Mrs. Christensen. So you don't feel that your fund-raising 
is somewhat slow?
    Mr. Wilburn. It is deliberate, ma'am. It is deliberate, as 
we had planned.
    Mrs. Christensen. Because part of that $8 million is the $5 
million and the $2.5 million that Congress appropriated, so 
that leaves about another--that means you have raised about $1 
million?
    Mr. Wilburn. $1 million, $1.5 million.
    Mrs. Christensen. Give or take.
    Mr. Wilburn. Also, if you will look, we submitted a plan in 
November of 2000 in which we mapped out our fund-raising 
schedule, and these kinds of efforts do require, as I mentioned 
before, to have the kinds of materials we have now to really 
convince people to make the commitment. That is where we 
expected that we would be at this particular point in time.
    Mrs. Christensen. How many members of the board of 
directors should there be in place?
    Mr. Wilburn. We have 9 members of our board of directors 
today. We are building our board very slowly over time. We are 
trying to make sure that we get people on our board who are 
willing to make the kinds of personal commitment in time and 
philanthropic commitment, and right now we have--I believe you 
have in front of you a list of the members of the board that 
are there. I think you would agree with me, we have a quite 
distinguished group of individuals who are on our board, and we 
are building on that.
    Mrs. Christensen. And what is the total number?
    Mr. Wilburn. Right now we have 9 members.
    Mrs. Christensen. You have 9, but what--.
    Mr. Wilburn. We don't have an absolute commitment, but 
certainly we would see having, you know, probably twice that 
many before we are finished.
    Mrs. Christensen. OK. I guess after hearing some of the 
discussion concerning the fact that maybe Congress might at 
some point consider an appropriation and the what-ifs on the 
fund-raising and so forth, I still just have a sense that there 
may be a more conservative approach, a smaller approach that 
might be the most prudent one. But you don't have any concerns 
that you won't be able to raise that money?
    Mr. Wilburn. There is always--you know, raising funds is 
difficult. I have done it before. We raised--all I know is my 
past experience. We raised, when I was in Williamsburg over a 
4-year period, about $160 million; in Pittsburgh in a 3-year 
period we raised $140 million back in the 1980's.
    Mrs. Christensen. So you feel pretty confident?
    Mr. Wilburn. I feel relatively confident because of the 
importance of the project, the importance of the place and the 
number of people up there that are interested. It is a 
difficult funding environment. There is no question about that.
    Mrs. Christensen. One more question. The building plans for 
the venue lobby, what are the programs at the facility that a 
visitor would be charged to see?
    Mr. Wilburn. It would be the same programs that they are 
charged to see now at Gettysburg, and that is, namely, the 
electric map program which we have now done in the two theaters 
that are shown here, and right above the two theaters will be 
the Cyclorama painting. Those will be the only fee venues. The 
museum would be free, as it is today. So the same things that 
you are charged for today, you would be charged for in this 
facility.
    Mrs. Christensen. The fees are anticipated to stay the 
same?
    Mr. Wilburn. The fees are anticipated to be modest. 
Obviously there will be some increases over time, but of the 
same relative magnitude that they are today.
    Mrs. Christensen. I guess I will stop there. Thank you.
    Mr. Radanovich. Thank you. I do have to say that my thought 
about the square footage seemed awful large compared to some of 
the other visitor's centers in the national parks, but when you 
think about it, when you go to Yosemite, you look at something 
that is there. I mean it is really there. And in Gettysburg, 
you are really looking at a nice landscape, but more 
importantly what was there once but isn't there now, and that 
is what happened during the Civil War, which puts the pressure 
on interpretive displays and how you present what happened then 
as being very important.
    I guess in my closing I would wish that, being a member of 
a satellite community of a national park, that you would 
continue to work with the community to make sure that this 
exhibit enhances the visitor's experiences. In dealing with 
overnight stays, at least we don't have to deal with overnight 
facilities inside this park that we do in Yosemite, which adds 
extra pressure between the Park Service and satellite 
communities. But at the same time, I would like to make sure 
that this visitor center is properly linked to the downtown of 
Gettysburg and the community there so that they are able to 
prosper by this expansion of Gettysburg as much as anybody 
else. Those are really my only comments.
    Mr. Santorum, did you have anything?
    Senator Santorum. Just in closing, I think one of the 
things that we will be doing as part of that is the shuttle 
service, the Wills House; there are a lot of things that we are 
doing with Gettysburg College, Mark Souder mentioned the 
Majestic Theater, and there is a lot of things that are under 
way right now to make sure that not just the visitor's center, 
but the battlefield is much more interlinked within the 
community and in bringing people downtown.
    As you probably know, the battle took place not just where 
it--on the south of town, but it also took place west of town, 
so you have to go through town to get from one end of the 
battlefield to the other. So there is already a linkage to 
town, and the more people you get going from day 1 to day 2 and 
3, they are coming through town and there is a greater 
opportunity for them to, particularly if there are sites for 
them to see while in town, there is a much better opportunity 
for them to stop and shop and do all of the other things and 
hopefully stay. The big shortfall of Gettysburg, which everyone 
has mentioned here, is it is a 1-day trip, and by having a much 
fuller interpretive experience we hope to make that into a 2-
day trip or more, and that is going to be a great boon to 
downtown.
    Thank you, Mr. Chairman. I appreciate it.
    Mr. Radanovich. One other question I do have is, to my 
knowledge, the information, or whatever is necessary to change 
the management plan that says that after 20 years of up and 
running operation, that it is dedicated to the National Park 
Service; that is happening? I mean that is something that--.
    Mr. Wilburn. That was always my interpretation of the 
reading anyway, and I assume that--.
    Mr. Hoffman. I think we have the agreement of the two 
parties verbally here, so we will put that change together.
    Mr. Radanovich. So you will get that in motion?
    Mr. Hoffman. Yes.
    Mr. Radanovich. All right. That is good enough for me.
    Any other questions?
    All right. Thank you. This hearing is adjourned.
    [Whereupon, at 3:23 p.m., the Subcommittee was adjourned.]

    The following information was submitted for the record:
    <bullet> LBenner, Craig, Gettysburg, Pennsylvania, Letters 
submitted for the record
    <bullet> LHaffner, Craig, President and CEO, Greystone 
Films, Letter submitted for the record
    <bullet> LLevy, Robert W., FAIA, President, The HABS/HAER 
Foundation, Letter and resolution submitted for the record
    <bullet> LPlatts, The Honorable Todd Russell, Statement 
submitted for the record
    <bullet> LRebmann, Chris, President, Association of 
Licensed Battlefield Guides, Letter submitted for the record

    [Letters submitted for the record by Mr. Benner follow:]
                             March 18, 2002

Dear Members of Congress,

    Thank you for reviewing the construction cost proposal for a much-
needed new visitor center and museum on the Gettysburg Battlefield. On 
January 17th, I wrote the First Lady with an appeal to monitor this 
project and I would like to think she heard my plea.
    Plans for a new visitor center and museum put forth by the National 
Park Service (NPS) with assistance from the Gettysburg National 
Battlefield Museum Foundation (GNBMF) are grandiose and do not conform 
to the community's architectural heritage. The proposed cost could 
rebuild most of the town of Gettysburg.
    In addition, the relationship between the NPS and GNBMF has created 
a degree of confusion regarding who actually ``owns'' the project and 
what role our Federal government plays in the proposed construction. 
The NPS should not sanction one group over others in soliciting private 
contributions for battlefield preservation.
    Please help us maintain the humble dignity of this hallowed place. 
I understand that our town's history belongs to the entire country. As 
a seventh generation citizen of Gettysburg and one who has family 
relics in the museum and on the battlefield, I hope we can do what 
history demands of us in a modest manner.
    Abraham Lincoln said, ``But, in a larger sense, we can not 
dedicate--we can not consecrate--we can not hallow--this ground. The 
brave men, living and dead, who struggled here, have hallowed it, far 
above our poor power to add or detract.''
    I trust in the judgment of Congress.

                                      Your loyal citizen,

                                      Craig Benner
                                      25 Chambersburg Street
                                      Gettysburg, PA 17325
                                      (717) 873-4296

                                 ______
                                 
                             March 22, 2002

Dear Members of Congress,

    Thank you for conducting the hearing yesterday on the proposed 
Gettysburg Battlefield visitor center construction cost. I was present 
at the hearing and disappointed with some of the answers that the 
National Park Service (NPS) and Gettysburg National Battlefield Museum 
Foundation (GNBMF) gave the Congresswomen and men.
    I was dismayed to hear the NPS believes the plan should not be open 
for discussion or review even after the price tag for the project has 
more than doubled. They said the change in cost was insignificant to 
the plan and thus, no need for an open discussion. I beg to differ. 
Specifically, if the National Park Service is going to be taking 
control of the buildings and land after 20 years, then it is important 
to know what the cost of maintaining the structures will be. Also, this 
is indicative of the NPS and GNBMF interactions with the citizens of 
Gettysburg. The NPS views our opinions as insignificant to the plans.
    The Congresswoman and men mentioned it was the first time they were 
able to review the architectural drawings of the structures. If the 
National Park Service is to take over the building in 20 years, then it 
is vitally important the architectural designs conform to the 
architectural history of the area. The Gettysburg HARB (Historical 
Architectural Review Board) should be contacted by the NPS regarding 
the architectural style of Gettysburg during Civil War period. The 
GNBMF architectural drawings call for round buildings to house some of 
the exhibits. Round buildings were not part of the landscape in 1863. 
Pennsylvania Dutch barns are square like boxes. The Federal Government 
should be interested in preserving the architectural landscape of 
historical America.
    Please ask the NPS to open the plans up for discussion and please 
request the NPS invites the citizens of Gettysburg to the discussion. 
The Congressman from Pennsylvania is under the belief retail 
storeowners on Steinwehr Avenue are the main voice of decent to the 
proposed plan of the NPS. But, there is a large contingency of 
Gettysburg citizens who appose the plan on cost, design and the way in 
which the NPS has conducted itself during the process. Apparently, 
donating $5 million to a NPS project gets you heard. Fortunately, in 
America it's one vote for one person. If the conduct of the NPS is not 
corrected and if the relationship with the GNBMF is not reviewed more 
closely then I will be certain to carry this issue to the next election 
of the Congressmen from Pennsylvania.
    The National Park Service in Gettysburg has taken an adversarial 
approach when dealing with the local citizens. If the management of the 
Gettysburg National Park cannot mend the relationship with the local 
community then please relocate NPS staff from Gettysburg to other 
parks. We should be working together and not moving apart. The irony of 
this divide at the Gettysburg Battlefield between the citizens and NPS 
staff is very disappointing

                                      Gettysburg resident and citizen,

                                      Craig Benner
                                      25 Chambersburg Street
                                      Gettysburg, PA 17325
                                      (717) 873-4296

                                 ______
                                 

    [A letter submitted for the record by Mr. Haffner follows:]
    [GRAPHIC] [TIFF OMITTED] 78322.016
    
    [A letter and resolution submitted for the record by Mr. 
Levy follow:]
[GRAPHIC] [TIFF OMITTED] 78322.017

[GRAPHIC] [TIFF OMITTED] 78322.018


    [A statement submitted for the record by Congressman Platts 
follows:]

  Statement of The Honorable Todd Russell Platts, a Representative in 
                Congress from the State of Pennsylvania

    Mr. Chairman and Members of the Subcommittee, thank you for 
affording me the opportunity to discuss the Museum and Visitor Center 
project at Gettysburg National Military Park.
    The Battle of Gettysburg was a pivotal turning point in American 
history. It was the largest and bloodiest battle to ever take place in 
North America and ultimately it helped preserve the United States of 
America. Today, an average of 1.8 million visitors come to Gettysburg 
to better appreciate the significance of the Gettysburg Campaign, the 
Civil War and the bravery of the soldiers who, in Abraham Lincoln's 
words, ``gave the last full measure of devotion.''
    Given the significance of this national treasure, I appreciate this 
opportunity for the subcommittee, the House of Representatives and the 
general public to receive an update on the National Park Service's 
partnership with the Gettysburg National Battlefield Museum Foundation. 
Questions have arisen about the direction this project has taken, and 
they deserve to be answered.
    Mr. Chairman, when I began my service in the House of 
Representatives last year, the Gettysburg Museum and Visitor Center 
Project had already been approved by the National Park Service. 
Although I was not a part of the debate leading up to that decision, I 
have focused my efforts in office on enhancing the visitor's experience 
at Gettysburg for future generations.
    When I visited Gettysburg National Military Park as a child, I 
remember being very impressed by the technology on display with the 
Electric Map. Thirty years later, however, you need more than a few 
blinking lights to capture the imagination of today's youth.
    As such, I fully support the National Park Service's plan to 
restore the Gettysburg Battlefield to its 1863 appearance, while 
building a state-of-the art museum and visitor center to better educate 
visitors and protect its extensive collection of artifacts and 
documents. We need to inspire new generations to study the causes and 
consequences of the events that took place on that hallowed ground in 
July 1863.
    Yet, legitimate questions have been raised about the price of the 
visitor center, the fundraising process and the potential use of 
taxpayer dollars. I have had the opportunity to individually raise 
these and other issues with the National Park Service and the 
Gettysburg National Battlefield Museum Foundation, and they have 
provided me with very satisfactory answers to these questions. Now 
importantly, the National Park Service and the Gettysburg National 
Battlefield Museum Foundation need to provide these same assurances to 
this committee, the House of Representatives and the general public.
    Upon the conclusion of that effort, I believe the committee will 
share my general support of this project. Thank you for the opportunity 
to give my testimony today. I ask that my statement be submitted for 
the hearing record.
                                 ______
                                 
    [A letter submitted for the record by Mr. Rebmann follows:]
               Association of Licensed Battlefield Guides
                             p.o. box 4152
                          gettysburg, pa 17325

                             march 16, 2002

Honorable George Radanovich
Chairman, Subcommittee on National Parks,
  Recreation and Public Lands
123 Cannon House Office Building
Washington, DC 20515

Dear Sir:

        re: plans for new museum and visitor center at gettysburg

    The Association of Licensed Battlefield Guides, representing over 
90 guides licensed by Gettysburg National Military Park, strongly 
supports the plans you will be discussing on March 21. Licensed guides 
at Gettysburg provide over 20,000 professionally guided tours for 
visitors each year. We provide the most comprehensive overall 
battlefield tours available to visitors, as we tailor personalized 
tours to each group going with them in cars, vans, and buses. Our 
constant interaction with visitors as we tell the powerful story of the 
battle gives us a unique perspective on the need for new facilities 
here.
    We are impressed with the initial design concepts that were 
unveiled by the Museum Foundation on January 11, 2002. We believe the 
quality, size, and styling reflected in those concepts seem fitting for 
Gettysburg.
    Quality: The excellent quality of materials and design suggested by 
the concepts even at higher cost is fully justified by the power of the 
story we tell here. Gettysburg reflects a critical moment in our 
history. Over 160,000 courageous Americans fought on this field; our 
visitors often stand in awe of the sacrifices those men made here. Our 
visitors come from every state and numerous other countries. For many, 
their visit is a once in a lifetime chance to see this field, absorb 
its story, and carry away memories. President Abraham Lincoln, as much 
as anyone, recognized the importance of Gettysburg in the American 
experience. His heart-felt words continue to draw new generations here 
to learn about Americans giving the last full measure of devotion.
    We believe that a low-budget facility of minimal quality would fall 
short of the expectations of many visitors, and fail to honor the 
memory of the American soldiers who fought here.
    Size: The size of the projected facility is necessary for two 
reasons. First, a great deal of space is required to handle the crowds 
of visitors during the warm months. Our current facility is often 
swamped by crowds, particularly in the spring when school groups from 
all across the country descend upon the battlefield.
    Of equal importance is the need for a larger museum display to link 
our story of real people with the tangible artifacts they left behind. 
Further, the museum must be large enough to tell at least a basic story 
of the entire Civil War period. Visitors must be able to place 
Gettysburg in the context of the period. As guides, we attempt to 
explain this as we unfold our tours on the battlefield itself. The 
projected museum plans reflect a larger facility that can do this 
effectively indoors. Then, when we begin our tours, the visitors will 
already understand the background history.
    We believe a smaller facility than the one planned would severely 
limit the park s ability to handle heavy visitation, as well as its 
ability to educate visitors with museum displays.
    Styling: The styling revealed by the design concepts seems ideal. 
It is sensitive to our rural landscape, and will blend into it rather 
than intrude upon it. The concept of farm-style buildings, nestled 
unobtrusively in an area that saw minimal battle activity, is 
fantastic. The use of stone and wood on the exterior seems wholly 
appropriate.
    Since our profession involves helping modern visitors visualize the 
landscape of 1863, we are strong supporters of the park s General 
Management Plan. Every effort to restore the period landscape will be 
applauded by our Association. The construction of new facilities of 
such appropriate styling, and the removal of the current Visitor Center 
and Cyclorama from their intrusive locations, will be cause for 
celebration among licensed guides at Gettysburg.
    In brief, these are reasons that our Association of Licensed 
Battlefield Guides supports the design concepts now under review. On 
behalf of the Association, I would be pleased to answer questions or 
provide additional information as needed. Thank you for your 
consideration of our comments.

Sincerely,

Chris Rebmann
President

cc:  Hon. Todd Platts
    Hon. Rick Santorum

                                   - 

</pre></body></html>
